    March 2, 2006




Systems Engineering Planning for
the Ballistic Missile Defense System
(D-2006-060)




             Department of Defense
            Office of Inspector General
Quality              Integrity            Accountability
  Additional Copies

  To obtain additional copies of this report, contact the Secondary Reports
  Distribution Unit, Audit Followup and Technical Support at (703) 604-8937 (DSN
  664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms

ABL                 Airborne Laser
BMD                 Ballistic Missile Defense
BMDS                Ballistic Missile Defense System
CJCS                Chairman Joint Chiefs of Staff
JCS                 Joint Chiefs of Staff
MDA                 Missile Defense Agency
NR-KPP              Net-Ready, Key Performance Parameter
SEMP                Systems Engineering Management Plan
SSAA                System Security and Authorization Agreement
THAAD               Terminal High Altitude Area Defense
Table of Contents

Executive Summary                                                              i

Background                                                                     I
     Objectives                                                                3
     Managers' Internal Control Program                                        3


Findings
     A. Systems Engineering Planning for the Ballistic Missile
          Defense System                                                       4
     B. Systems Engineering for the Aegis Ballistic Missile Defense Element    9
     C. Systems Engineering for the Terminal High Altitude Area
          Defense Element                                                     17
     D. Systems Engineering for the Airborne Laser Element                    21
     E. Auditor Access to Documents at the Missile Defense Agency             29


Appendixes
     A. Scope and Methodology                                                 33
          Prior Coverage                                                      34
     B. Missile Defense Agency Systems Engineering Process                    35
     C. Systems Engineering Policy and Guidance                               36
     D. Audit Response to Missile Defense Agency Comments                     39
     E. Report Distribution,                                                  41


Management Comments
     Missile Defense Agency                                                   43
                               INSPECTOR           G E N E R A L
                                DEPARTMENT O F D E F E N S E
                                 4 0 0 A R M Y NAVY D R I V E
                        A R L I N G T O N , VIRGINIA 2 2 2 0 2 - 4 7 0 4




                                                                            March 2, 2006

MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY

SUBJECT: Report on Systems Engineering Planning for the Ballistic Missile Defense
         System (Report No. D-2006-060)


      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Missile Defense Agency comments were partially responsive. We request additional
comments from the Director, Missile Defense Agency on Recommendations A.1., A.3.,
B.1.a., C.1., and C.2.; from the Element Manager, Aegis Ballistic Missile Defense on
Recommendation B.2.; from the Element Manager, Terminal High Altitude Area Defense
on Recommendation C.2.b.; and from the Element Manager, Airborne Laser on
Recommendations D.l and D.4. As a result of management comments, we redirected
Recommendation B.l.b. to the Director, Missile Defense Agency, we revised
Recommendation D.3., and we deleted Recommendations A.4., C.2.b., and C.2.c.
Therefore, we request that the Director, Missile Defense Agency also provide comments
on the redirected Recommendation B.l.b., and that the Element Manager, Airborne Laser
provide comments on revised Recommendation D.3. Please provide responses by
April 3,2006.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Harold C. James at (703) 604-9088 (DSN 664-9088). See Appendix E for the
report distribution. The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:




                                            Richard B . Jolliffe
                                       Assistant Inspector General
                                  Acquisition and Contract Management
                  D e p a r t m e n t of D e f e n s e Office of I n s p e c t o r G e n e r a l

R e p o r t No. D-2006-060                                                                         March 2,2006
   (Project N o . D2005-D000AE-0134.000)


                          Systems Engineering Planning for the
                             Ballistic Missile Defense System

                                        Executive Summary

W h o Should Read This R e p o r t and W h y ? DoD acquisition officials who are
responsible for planning and implementing systems engineering for programs should be
interested in this report because it discusses the critical planning needed to support
systems engineering for the Ballistic Missile Defense System.

Background. On January 2, 2002, the Secretary of Defense expanded the Missile
Defense Agency's (formerly the Ballistic Missile Defense Organization) responsibility
and authority by directing the Missile Defense Agency to develop and field a single
integrated ballistic missile defense system to protect the United States, its deployed
forces, friends, and allies against ballistic missiles of all ranges in all phases of flight.
Additionally, the Secretary of Defense emphasized the need to field Missile Defense
Agency elements* or key components of element capabilities as soon as practicable and
to design incremental upgrades to integrate these components over time. The Missile
Defense Agency budget for FY 2005 was $8.8 billion in research, development, test, and
evaluation Hinds.

Results. The Missile Defense Agency had not completed a systems engineering plan or
planned fully for system sustainment. Therefore, the Missile Defense Agency is at risk
of not successfully developing an integrated ballistic missile defense system (finding A).
In addition, Missile Defense Agency Instruction 7600.01 did not comply with the
requirements of DoD Instruction 7050.3. Therefore, the Missile Defense Agency needs
to revise the Missile Defense Agency Instruction to comply with DoD guidance
(finding E).

The Missile Defense Agency did not have adequate information to evaluate the planned
systems engineering for the Aegis Ballistic Missile Defense Element. Until the Aegis
Ballistic Missile Defense element manager obtains approval of the systems engineering
management plan, implements information assurance requirements, and coordinates a
net-ready, key performance parameter and an information support plan, the Missile
Defense Agency cannot be assured the Aegis Ballistic Missile Defense information
systems are secure and will be interoperable (finding B).



* When the Missile Defense Agency was created, the Secretary of Defense placed a number of individual
  Service acquisition programs that became components of the Ballistic Missile Defense System under
  Missile Defense Agency control. These formerly independent programs, which receive their funding
  directly from the Missile Defense Agency, became known as Missile Defense Agency elements. In
  February 2002, the Under Secretary of Defense for Acquisition, Technology, and Logistics designated
  the Ballistic Missile Defense System as one major DoD acquisition program.
The Missile Defense Agency could not fully evaluate systems engineering for the
Terminal High Altitude Area Defense Element. Until the necessary documentation is
completed and approved, the Missile Defense Agency cannot be assured that the
Terminal High Altitude Area Defense information systems are secure (finding C).

The Missile Defense Agency could not fully evaluate systems engineering for the
Airborne Laser Element. Until the Airborne Laser element manager updates the single
acquisition plan and the systems engineering plan, requires the contractor to comply with
the software development plan, fully establishes earned value reporting, and implements
security requirements for weapon systems, the element manager's ability to adequately
oversee element development and system security will remain limited (finding D).

On a positive note, the Terminal High Altitude Area Defense element manager had
aggressively developed a capabilities production document, with a net-ready, key
performance parameter and an information support plan, 2 years ahead of the scheduled
transition to the Army.

M a n a g e m e n t C o m m e n t s arid Audit Response. The Executive Director responded for
the Director, Missile Defense Agency, and for the managers of the Aegis Ballistic
Missile Defense, the Terminal High Altitude Area Defense, and the Airborne Laser
elements. The Executive Director concurred that the Missile Defense Agency will
establish a comprehensive systems engineering plan that will focus on achieving the
technical objectives for the Ballistic Missile Defense System, updating logistic support
planning to effectively sustain future missile defense capability, and revising agency
policy so that auditors from the DoD Office of the Inspector General receive expeditious
and unrestricted access to documents in future audits. The Executive Director also
concurred with, or proposed actions that meet the intent of, the recommendations for
providing improved planning for systems engineering and systems security for the Aegis
Ballistic Missile Defense, the Terminal High Altitude Area Defense, and the Airborne
Laser elements. The Executive Director nonconcurred with providing additional systems
engineering guidance to element managers, planning for transitioning the Aegis Ballistic
Missile Defense Element to the Navy, requiring Missile Defense Agency approval of the
configuration management plan for the Terminal High Altitude Area Defense Element,
for improving the software development plan, and for expanding earned value
management reporting for the first Airborne Laser aircraft. As a result of the Executive
Director's comments, we redirected Recommendation B.1.b. for transition planning on
the Aegis Ballistic Missile Defense Element to the Director, Missile Defense Agency.
Additionally, recognizing the work already completed on the first Airborne Laser
aircraft, we revised our recommendations for software development and earned value
management reporting to apply only to the second and subsequent Airborne Laser
aircraft. Further, we deleted Recommendations A.4., C.2.b., and C.2.C. See the Findings
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

We request that the Director, Missile Defense Agency, and the element managers for
Aegis Ballistic Missile Defense and the Airborne Laser comment on the final report by
April 3,2006.




                                             ii
    Background

           National Missile Defense Policy. On July 22, 1999, the President signed the
           National Missile Defense Act of 1999 (Public Law 106-38), which requires the
           United States to deploy an effective system capable of defending the United
           States against limited ballistic missile attacks. The President provided further
           direction in National Security Presidential Directive 23, "National Policy on
           Ballistic Missile Defense," December 16, 2002, requiring the Secretary of
           Defense to deploy an initial set of missile defense capabilities in 2004.
           Presidential Directive 23 also states that the Secretary of Defense is to develop
           and deploy a Ballistic Missile Defense System (BMDS) with the best
           technologies available.

           Missile Defense Agency. On January 2, 2002, the Secretary of Defense
           expanded the Missile Defense Agency's (MDA) (formerly the Ballistic Missile
           Defense Organization) responsibility and authority by directing it to develop and
           field a single integrated BMDS to protect the United States, its deployed forces,
           friends, and allies against ballistic missiles of all ranges in all phases of flight.
           Additionally, the Secretary of Defense emphasized the need to field MDA
                     1
           elements or key components of element capabilities as soon as practicable and to
           improve the BMDS with incremental block upgrades. MDA elements are Aegis
           Ballistic Missile Defense (BMD); Terminal High Altitude Area Defense
           (THAAD); Airborne Laser (ABL); Command and Control, Battle Management,
           and Communications; Ground-Based Midcourse Defense; Kinetic Energy
           Interceptor; Patriot Advanced Capability-3; BMDS Sensors; and Space Tracking
           and Surveillance System.

           To accomplish the Secretary's directions, MDA implemented a capabilities-based
           acquisition strategy using a developmental test bed and a series of biennial
           developmental blocks. Each block permits MDA elements to insert newly
           developed component capabilities. The first biennial development block, Block
           2004, occurred during 2004 and 2005. As of September 2005, MDA had defined
           developmental capabilities for biennial development out to Block 2014, which
           will occur during 2014 and 2015. Each block will build on the capabilities
           developed during previous blocks, and each successive block will provide
           increasing levels of capability to counter ballistic missiles of all ranges and
           complexity. The MDA budget for FY 2005 was $8.8 billion in research,
           development, test, and evaluation funds.




1
    When the Missile Defense Agency was created, the Secretary of Defense placed a number of individual
    Service acquisition programs that became components of the Ballistic Missile Defense System under
    Missile Defense Agency control. These formerly independent programs, which receive their funding
    (research, development, test and evaluation) directly from the Missile Defense Agency, became known as
    Missile Defense Agency elements. In February 2002, the Under Secretary of Defense for Acquisition,
    Technology, and Logistics designated the B M D S as one major DoD acquisition program.



                                                     1
Systems Engineering. Systems engineering is the overarching process that an
acquisition program team employs to transition a system from a stated capability
need to an operationally effective and suitable system. Systems engineering:

        •   employs multiple disciplines to simultaneously design and develop
            system products and processes to satisfy the needs of the warfighter;

        •   applies certain processes adapted to each phase of the acquisition life
            cycle to foster balanced solutions; and

        •   provides the capabilities that the warfighters need, while remaining
            within design constraints and technology, budget, and schedule
            limitations.

Programs should apply systems engineering processes early in the concept
definition phase, and then throughout the total life cycle. The goal of systems
engineering is to provide the warfighter with a total system solution that will:

       •    withstand changing technical, production, and operating environments;

       •    adapt to the needs of the user; and

       •    balance design considerations, design constraints, and program
            budgets among multiple requirements.

The MDA was still developing systems engineering processes for the BMDS to
provide an integrated and layered BMDS architecture and develop element
requirements and schedules. Applying systems engineering is extremely difficult,
particularly at MDA, because it is working with a number of programs that are in
different and distinct stages of development, while attempting to field a test bed
capability that can be used in the BMDS. Appendix B provides an overview of
the MDA planned systems engineering process.

DoD acquisition managers must comply with many regulatory and guidance
documents when they are planning and implementing systems engineering.
Among the most significant documents are policy memorandums issued by the
Under Secretary of Defense for Acquisition, Technology, and Logistics that
reestablish the requirement for systems engineering. Specifically, these
memorandums, which are planned for inclusion in updates to the DoD 5000
series, act as an acquisition manager's internal control by directing programs to
document their use of systems engineering. Also, DoD Directive 5134.9,
"Missile Defense Agency," October 9, 2004, which supplemented the January
2002 Secretary of Defense direction, requires MDA acquisition managers to
manage the BMDS consistent with the principles of DoD Directive 5000.1, "The
Defense Acquisition System," May 12,2003, and DoD Instruction 5000.2,
"Operation of the Defense Acquisition System," May 12, 2003. Appendix C
discusses regulatory and guidance documents and how they relate to the systems
engineering process.




                                     2
Objectives

    The overall audit objective was to evaluate the MDA systems engineering
    planning needed to support the BMDS. Specifically, the audit determined
    whether the M D A was adequately planning systems engineering to develop field
    elements or key components of element capabilities into an effective and suitable
    BMDS. We also reviewed the managers' internal control program as it relates to
    the overall objective. See Appendix A for a discussion of the scope and
    methodology.



Managers' Internal Control Program

    DoD Directive 5010.38, "Management Control Program," August 26, 1996, and
    DoD Instruction 5010.40, "Management Control Program Procedures,"
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the M a n a g e m e n t Control Element. In accordance with
    DoD Directive 5000.1, acquisition managers are to use program cost, schedule,
    and performance parameters as control objectives to implement the requirements
    of DoD Directive 5010.38. Accordingly, we reviewed management controls that
    were directly related to systems engineering planning for the BMDS and the
    MDA elements.

    Adequacy of M a n a g e m e n t Controls. We identified material management
    control weaknesses at MDA, as defined by DoD Instruction 5010.40, relating to
    systems engineering planning. MDA management controls for systems
    engineering planning were not adequate to manage BMDS and MDA elements
    according to the principles of the DoD 5000 series, including producing required
    documentation for systems engineering planning. The recommendations in
    findings A, B, C, and D, if implemented, will correct the identified weaknesses
    and result in compliance with DoD systems engineering principles. A copy of the
    final report will be provided to the senior official responsible for management
    controls at MDA.

    Adequacy of M a n a g e m e n t ' s Self-Evaluation. MDA officials did not identify
    systems engineering as an assessable unit and therefore did not identify systems
    engineering as a management control weakness.




                                          3
           A. Systems Engineering Planning for the
              Ballistic Missile Defense System
           M D A had not completed critical planning documents to support BMDS
           systems engineering. Specifically, the MDA had not completed a systems
           engineering plan and had not planned fully for system sustainment. These
           conditions occurred because MDA did not consistently follow the DoD
           policy that requires the Director, Missile Defense Agency to manage the
           BMDS consistent with the principles of acquisition policy in the DoD
           5000 series. Another cause was that MDA was tasked with designing a
           single integrated system from a group of preexisting acquisition programs
           and fielding a missile defense capability quickly. As a result, the BMDS
           ability to develop and integrate the elements into a system that meets U.S.
           requirements is at risk.



Policies and Procedures

    Acquisition managers must follow a number of DoD policies and procedures
    relating to planning and executing systems engineering for the BMDS (see
    Appendix C). However, DoD Directive 5134.9, "Missile Defense Agency,"
    October 9,2004, provides the Director, Missile Defense Agency with significant
    flexibility in managing BMDS elements until the elements transfer to the
    Services. Specifically, DoD Directive 5134.9 permits the Under Secretary of
    Defense for Acquisition, Technology, and Logistics, in collaboration with the
    Director, Missile Defense Agency, to determine the applicability of the DoD 5000
    series in the development of the BMDS. Additionally, DoD Directive 5134.9
    tasks the Director, Missile Defense Agency with maintaining a single
    development program for all work needed to design, develop, and test an
    integrated BMDS.

    The MDA Systems Engineering and Integration Council assists the MDA
    Systems Engineering and Integration Directorate (the Systems Engineering
    Directorate) in managing systems engineering by providing a forum to engineer
    and integrate BMDS blocks. The Systems Engineering Integration Council also
    assists in planning and executing systems engineering and integration and
    overseeing element engineering.



Systems Engineering Planning for the BMDS

    MDA had not completed critical planning to support systems engineering for the
    BMDS. Specifically, MDA had not formulated a systems engineering plan or
    developed a complete integrated logistics support plan.

    Formulating a Systems Engineering Plan for the B M D S . The Under Secretary
    of Defense for Acquisition, Technology, and Logistics memorandum, "Policy for
    Systems Engineering in DoD," February 20, 2004, requires program managers to

                                       4
develop a systems engineering plan for the milestone decision authority's
approval that describes the program's overall technical approach and includes
processes, resources, metrics, and applicable performance incentives required to
achieve objectives. To follow the principles stated in the Under Secretary of
Defense for Acquisition, Technology, and Logistics policy memorandum, the
MDA should establish a systems engineering plan (or similar document) that
provides a comprehensive description of the MDA technical approach and
strategy to achieve its objectives. In March 2005, staff from the Systems
Engineering Directorate stated that MDA had not prepared the systems
engineering plan for the BMDS. Since then, the Systems Engineering Directorate
took steps to address this difficult requirement and planned to complete a systems
engineering plan for the BMDS that will include the systems engineering process
that the Systems Engineering Directorate briefed to the elements in August 2005.

Planning for System Sustainment. DoD Instruction 5000.2 states that the
effective sustainment of weapon systems begins with the design and development
of reliable and maintainable systems through the continuous application of a
strong systems engineering methodology. The Instruction also states that a
weapon system requires a support program that meets operational support
performance requirements and sustains the system in the most cost-effective
manner.

The Director, Missile Defense Agency memorandum, "Missile Defense Agency '
Integrated Logistics Support Policy," August 4, 2003 (the MDA Support Policy),
implements the principles of DoD Instruction 5000.2 on system sustainment by
identifying logistics support actions that MDA managers must accomplish to fully
sustain the BMDS. Under the MDA Support Policy, the Systems Engineering
Directorate and the MDA Deputy for Force Structure Integration and Deployment
(the Force Structure and Deployment Directorate) each has responsibilities for
planning logistics support. The Systems Engineering Directorate is required to
assess the engineering of BMDS elements including their producability,
reliability, availability, and maintainability. The Force Structure and Deployment
Directorate is required to:

       •   develop a plan for logistics supportability and guidance for all MDA
           staff offices and elements and review all elements' integrated support
           plans,

       •   integrate the elements' plans into a single logistics support annex
           within the MDA Block Activation Plan,

       •   develop an overarching concept for BMDS logistics support,

       •   identify ways to manage common logistics across elements, and

       •   propose methods for achieving economies and efficiencies of scale as
           warranted.

Additionally, the Systems Engineering Directorate and the Force Structure and
Deployment Directorate jointly chair an integrated logistics support team to share
data planning among the MDA elements throughout the logistics life cycle.

                                     5
     MDA had not fully implemented management actions to support the integrated
     logistics outlined in the MDA Block Activation Plan and in the MDA Support
     Policy for sustaining the BMDS. For example, although the draft Block
     Activation Plan for Block 04 states that M D A would have a system-level,
     integrated logistics support plan approved by November 2003, the Force Structure
     and Deployment Directorate had not prepared an overall BMDS Integrated
     Logistics Support Plan. However, when M D A did outline a logistics support plan
     in Logistic Support Document 2005 (the Logistics Support Document), it
     provided only general information. For more detail, the Logistics Support
     Document referred to the individual element's integrated logistics support plans
     and states that each element is responsible for planning the following eight
     logistics-support-related areas: supply; equipment; packing, handling, storing,
     and transportation; facilities; computer resources; technical data; maintenance
     planning; and manpower and personnel.

     Additionally, the Logistics Support Document states that the Force Structure and
     Deployment Directorate will transmit and distribute sustainment information
     between the user community and the elements, but it does not explain how the
     Force Structure and Deployment Directorate should perform this function.
     Further, although the integrated logistics support plans of the elements, including
     those for Aegis BMD, THAAD, and ABL, provide information on logistics
     support, they do not explain how the elements should work with MDA and other
     elements. If MDA is to develop and field an integrated BMDS, the Logistics
     Support Document and the elements' integrated logistics support plans should
     include provisions to allow the Force Structure and Deployment Directorate to
     better identify and manage logistics functions that are common to elements, so
     that they may achieve economies and efficiencies of scale as directed in the MDA
     Support Policy.

    MDA was also drafting MDA Directive 5010.AA, "Ballistic Missile Defense
    Sustainment," to establish policies and procedures for developing a sustainable
    BMDS. The draft MDA Directive identifies the functions of the Integrated
    Logistics Support Team, which disseminates logistics information among the
    elements. It also lists sustainment-related events that elements should conduct
    during each phase of the development process to support future system
    sustainment. M D A planned to provide additional policy and guidance to clarify
    the content and schedule for sustainment-related events in the draft M D A
    Directive.



Factors Affecting Systems Engineering

    Because of the way in which the BMDS acquisition evolved, M D A was unable to
    complete critical planning to support systems engineering in compliance with the
    requirements in DoD Directive 5134.9 for managing the acquisition of the BMDS
    elements in a way that was consistent with the principles of DoD Directive 5000.1
    and DoD Instruction 5000.2. Specifically, MDA had to plan and design an
    integrated system from a group of pre-existing acquisition programs (now the
    MDA elements), as well as meet the requirement of Presidential Directive 23 to
    field an initial BMDS capability in 2004. As a result, staff from the Systems

                                         6
    Engineering Directorate stated that MDA had not prepared a systems engineering
    plan earlier for the BMDS because it was still developing a systems engineering
    process. Preparing the systems engineering plan was very difficult because MDA
    was not able to initially design the BMDS from the top down; instead, they first
    had to design a way to integrate the existing elements into the overall BMDS.
    After planning the initial BMDS capability, MDA developed systems engineering
    processes that involve both bottom-up and top-down processes. In the bottom-up
    process, MDA used the existing capabilities of the BMDS elements, along with
    maturing technologies, to lower system development risk and improve the
    timeliness for fielding the ballistic missile defense capability. In the top-down
    process, MDA used the capabilities defined in the Technical Objectives and Goals
    document to update capability development documents of the current, next, and
    future BMDS blocks.

    The Systems Engineering Directorate staff recognized that they need to develop
    an MDA-level systems engineering plan. Additionally, because MDA was
    rushing to field an initial BMDS capability, it had not fully planned for system
    sustainment. Element managers may refer to their element system engineering
    plan as the systems engineering management plan (SEMP).


Conclusion

    Without improving systems engineering processes and documentation, MDA
    faces increased risk in successfully integrating the individual elements into a
    single system that will meet U.S. requirements for ballistic missile defense. An
    effective systems engineering process must provide key documents, including the
    systems engineering plan and an integrated logistics support plan. Systems
    engineering processes are necessary to transition the individual elements from a
    stated capability need to an operationally effective and suitable BMDS.

    MDA staff stated in response to a discussion draft of this report that they were:

        •   developing a comprehensive systems engineering plan that describes
            approaches and strategies for achieving BMDS technical objectives,

        •   updating the Logistics Support Document;

        •   directing element managers to update elements' integrated logistics
            support plans; and


Recommendations, Management Comments, and Audit
  Response

    Deleted Recommendation. As a result of management comments, we deleted a
    section of finding A in the draft report that discussed guidance for the individual
    elements on systems engineering activities and deleted the corresponding
    Recommendation A.4. In his response, the Executive Director, MDA provided
                                         7
      sufficien                                                                                                               t                evidenc                                                                                                                                                                    e                t                            o                            demonstrat                                                                                                                                                                                             e                tha                                                                 t           MD                                                                      A                                ha                                                        d                provide                                                                                                                                                                    d                guidanc                                                                                                                                          e                  t                               o                 th                                        e




       individua                                                                                                                                       l             element                                                                                                                                                           s                    o                                        n                     thei                                                               r             system                                                                                                                                   s                     engineerin                                                                                                                                                                                 g                     activities                                                                                                                                                                                   .                       Furthe                                                                                                                  r             detail                                                                                                    s       ar                   e




       discusse                                                                                                           d                                i                              n               Appendi                                                                                                                                                                                x                    D                                       .




       W                       e               recommen                                                                                                                                                                                                       d                             tha                                                                                     t                    th                                             e                  Director                                                                                                                                                              ,                Missil                                                                                                         e                   Defens                                                                                                                                              e                            Agency                                                                                                                                                                :




                                                                                                              1                       .                    Establis                                                                                                                                                                            h                    a                                               comprehensiv                                                                                                                                                                                                                                                             e               system                                                                                                                              s                   engineerin                                                                                                                                                                                                                                   g                     pla                                                           n            tha                                                                               t         describe                                                                                                           s




      th                   e                Missil                                                                                                                        e                   Defens                                                                                                                                               e                 Agency'                                                                                                                                                      s                      approache                                                                                                                                                                                                   s               an                                                              d                        strateg                                                                                                                                                         y                     t                                o                      achiev                                                                                                                e                  it                                    s                technica                                                                                                  l




      objectives                                                                                                                                                          ,               i                    n                complianc                                                                                                                                                                                                                         e                 wit                                                              h                       th                                                      e                   Do                                                                D                         Directiv                                                                                                                                                             e                      5134.9                                                                                                                                                      ,            "Missil                                                                                                                        e                       Defens                                                                                                   e




      Agency,                                                                                                                         "                         Octobe                                                                                                                                                        r                9                                         ,                   2004                                                                                 ,         requiremen                                                                                                                                                                                                                           t           t                       o                     manag                                                                                                                                                  e                            th                                                 e                      Ballisti                                                                                                                              c                Missil                                                                                                                       e




      Defens                                                                                     e                    Syste                                                                                                                   m                                     consisten                                                                                                                                                                                             t           wit                                                                     h                        th                                                     e                    principle                                                                                                                                                             s                     o                              f                    th                                                                e                    Do                                                             D                                      500                                                                   0            series                                                                                                                .




      Managemen                                                                                                                                                                                                         t       Comments                                                                                                                                                                                                                                       .        Th                                                                   e                    Executiv                                                                                                                                                               e           Director                                                                                                                                                            ,               respondin                                                                                                                                                                                                  g                  fo                                r                   th                                                  e             Director                                                                                                   ,




      Missil                                                                   e                     Defens                                                                                                                                           e                        Agency                                                                                                                                                               ,        concurred                                                                                                                                                                               ,              statin                                                                                           g                   tha                                                                 t                MD                                                                                              A                                      wa                                                         s                    coordinatin                                                                                                                                                                                               g                 a                           draf                                         t




      SEM                                                     P                    tha                                                                               t            woul                                                                                              d                             b                                         e                    distribute                                                                                                                                                              d                        t                             o                  th                                                e               entir                                                                               e                  agenc                                                                                                                   y                         afte                                                                                    r              i                           t                i                       s                 approved                                                                                                                                                        .




      Audi                                                    t              Response                                                                                                                                                                                                       .                In                                                                 respons                                                                                                                               e               t                                  o                 th                                                e                     fina                                                                 l            report                                                                                                               ,         w                                               e                        reques                                                                                                                                          t            tha                                                      t             th                                  e                   Director                                                                                                                     ,




      Missil                                                                   e                     Defens                                                                                                                                           e                        Agenc                                                                                                                                               y                provid                                                                                                                   e                     a                             n                       estimate                                                                                                                                          d                         dat                                                             e                        fo                                                           r                     approvin                                                                                                                                                              g                  an                                            d                        distributin                                                                                                                                  g




      th               e                draf                                                             t            SEMP                                                                                                                                            .




                                                                                                         2                        .                Updat                                                                                                                                                 e                    th                                                        e                        Logistic                                                                                                                                            s                 Suppor                                                                                                                                               t            Documen                                                                                                                                                                                                  t                   200                                                                                   5                t                                  o                  clarif                                                                                         y                       ho                                                         w                       th                           e




   Missil                                                                      e                     Defens                                                                                                                                               e                     Agency'                                                                                                                                                                            s                Forc                                                                                               e                    Structur                                                                                                                                                         e                   Integratio                                                                                                                                                                                                                         n                     an                                                                d                     Deploymen                                                                                                                                                                                                          t




  Directorat                                                                                                                                                                      e                    shoul                                                                                                                      d                        coordinat                                                                                                                                                                                 e                       wit                                                                         h                         elemen                                                                                                                                t            office                                                                                                                  s                        t                                  o                   pla                                                                          n                      logistic                                                                                                                                   s




  sustainmen                                                                                                                                                                                       t           fo                                                 r                 th                                                                 e                Ballisti                                                                                                                                  c               Missil                                                                                                                                       e             Defens                                                                                                                              e               System                                                                                                                                                                         .




   Managemen                                                                                                                                                                                                        t           Comments                                                                                                                                                                                                                                   .        Th                                                                   e                    Executiv                                                                                                                                                               e             Directo                                                                                                                                            r                 concurred                                                                                                                                                                                                       ,         statin                                                                                             g                      tha                                                    t             MD                                           A




  wa                                s          updatin                                                                                                                                             g                th                                                e                         Logistic                                                                                                                                                              s             Suppor                                                                                                                                   t           Documen                                                                                                                                                                             t        200                                                                             5                          t                                    o                          creat                                                                                                e                 Logistic                                                                                                                                        s                Suppor                                                                                   t




  Documen                                                                                                                                              t             2006                                                                                                  .            Th                                                                                  e                        Logistic                                                                                                                                s                           Suppor                                                                                                                                t               Documen                                                                                                                                                                    t                   200                                                                                               6                 wil                                                                           l         defin                                                                              e                        coordinatio                                                                                                                                                     n




  procedure                                                                                                                                                     s             fo                                            r        th                                                              e                    MD                                                                                         A                          Forc                                                                              e                      Structur                                                                                                                                                      e               an                                            d                      Deploymen                                                                                                                                                                                                                                          t            Directorat                                                                                                                                                                          e                   an                                               d                 th                     e




  elemen                                                                                 t                   office                                                                                                              s                t                                     o                         us                                                        e                        i                         n                logisti                                                                                                          c                    sustainmen                                                                                                                                                                                             t             plannin                                                                                                                                                            g                          fo                                               r               th                                                    e                 BMDS                                                                                                                       .          Th                                                             e




 Executiv                                                                                                                         e                            Directo                                                                                                                                                r               anticipate                                                                                                                                                                          d               tha                                                                        t             th                                                e               completio                                                                                                                                                                          n                 dat                                                                                            e                 fo                                               r       th                                                        e                 Logistic                                                                                                                                       s                Suppor                                                                                t




  Documen                                                                                                                                          t                200                                                                   6                           woul                                                                                                                   d                       occu                                                                               r         durin                                                                                                            g                         th                                        e                   thir                                                          d                         quarte                                                                                                                            r                    o                                           f             F                                   Y                            2006                                                                                                 .




                                                                                                     3                    .                   Issu                                                                                            e                           polic                                                                                                                      y                 t                        o                 Missil                                                                                                                   e                    Defens                                                                                                                               e             Agenc                                                                                                                             y                             elemen                                                                                                                                                                t                manager                                                                                                                                                            s             t                         o                 updat                                                                      e




  elements                                                                                                                                     '               integrate                                                                                                                                                                                        d                       logistic                                                                                                                              s                  suppor                                                                                                                                                 t          plan                                                                                        s                 wit                                                                 h                         procedure                                                                                                                                                                                                                           s              fo                                     r                   interactin                                                                                                                                               g




wit                                     h            th                                              e                Missil                                                                                                                                  e                     Defens                                                                                                                                                  e                 Agenc                                                                                                                            y                    Forc                                                                                               e               Structur                                                                                                                                                                   e                     Integratio                                                                                                                                                                                                                       n                  an                                                    d




Deploymen                                                                                                                                                                                      t           Directorat                                                                                                                                                                                                                       e                 an                                                  d                   othe                                                                                                       r                 elemen                                                                                                                              t                 office                                                                                                              s                        t                                          o                  mor                                                                                             e               effectivel                                                                                                                                                          y                pla                                              n




 fo                r               logistic                                                                                                                                           s             suppor                                                                                                                                                      t               o                                          f           missil                                                                                                e                            defense                                                                                                                                                  .




Managemen                                                                                                                                                                                                       t           Comments                                                                                                                                                                                                                                   .           Th                                                          e                          Executiv                                                                                                                                                               e               Directo                                                                                                                                      r                    concurred                                                                                                                                                                                                        ,           statin                                                                                       g                         tha                                                     t            th                    e




MD                                             A                  Forc                                                                                                        e                    Structur                                                                                                                                                             e                        an                                                 d                  Deploymen                                                                                                                                                                                                             t         Directorat                                                                                                                                                                                e                    wa                                                                                     s             developin                                                                                                                                                                           g                th                                                 e                     BMD                                                                          S




Integrate                                                                                                                 d                                    Sustainmen                                                                                                                                                                                                                                    t        Suppor                                                                                                                     t                Pla                                                                    n                         tha                                                         t       wil                                                            l               lin                                                           k                th                                                       e                            procedure                                                                                                                                                                                        s             fo                                      r             interactio                                                                                                                            n




amon                                                          g                 th                                                        e                         BMD                                                                                                             S                             an                                                            d                            elemen                                                                                                               t            office                                                                                                                      s             t                         o                   mor                                                                           e                     effectivel                                                                                                                                                                                     y                        pla                                                                        n                   integrate                                                                                                                                                 d




 logistic                                                                                    s                    support                                                                                                                                                       .




Audi                                                      t        Response                                                                                                                                                                                                     .                I                                         n                        respons                                                                                                                                   e               t                              o                        th                                             e                   final                                                                                  report                                                                                                           ,            w                                           e                      reques                                                                                                                                      t                    tha                                                         t            th                               e                     Director                                                                                                                    ,




Missil                                                                   e               Defens                                                                                                                                       e                       Agenc                                                                                                                                                       y               provid                                                                                                                     e                 a                                 n                   estimate                                                                                                                                            d                       dat                                                                 e                fo                                                                  r                 th                                            e                      approva                                                                                                                                   l            o                                        f             th                                        e             BMD                                                                S




Integrate                                                                                                             d                                Sustainmen                                                                                                                                                                                                                                        t          Suppor                                                                                                                 t                     Plan                                                                                              .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       8
                                                                              B                                  .                System                                                                                                                                                                                                                                                 s                               Engineerin                                                                                                                                                                                                                                                                                                                                                                                                 g                                            fo                                                                 r                            th                                                                                  e                                  Aegi                                                                                                                                                                s




                                                                                                                                                                       Ballisti                                                                                                                                                                                                                      c                               Missil                                                                                                                                                                                                                      e                                        Defens                                                                                                                                                                                                                                e                               Elemen                                                                                                                                                                                                                                                        t




                                                                              Althoug                                                                                                            h                     th                                         e                 Aegi                                                                                                     s               BM                                                                                      D                                   elemen                                                                                                                                             t             manage                                                                                                                                                             r              (th                                             e                 elemen                                                                                                                                t                manager                                                                                                                                                                 )




                                                                               followe                                                                                             d                     man                                                                                 y              o                                               f               th                                                 e             system                                                                                                                                                  s           engineerin                                                                                                                                                                                                                 g                        processe                                                                                                                                              s                 describe                                                                                                                                                      d                i                         n                         th                                         e




                                                                              Defens                                                                                        e                   Acquisitio                                                                                                                                                                                           n                         Guidebook                                                                                                                                                                                                            ,                sh                                                        e                         ha                                                             d               no                                                         t         complete                                                                                                                                                        d                     severa                                                                                                                       l      system                                                                                                                       s




                                                                              engineerin                                                                                                                                             g                document                                                                                                                                                                                                  s                    an                                                      d                      processe                                                                                                                                                                             s                        tha                                                           t               ar                                           e          importan                                                                                                                                                            t           t                              o                  transitio                                                                                                                                                n               th                                   e




                                                                              Aegi                                                             s        BM                                                                       D                                Elemen                                                                                                                                                   t          (th                                                                        e               element                                                                                                                                                          )               capabilitie                                                                                                                                                                                               s          fo                                             r               Bloc                                                                                          k                      0                                  4                     t                          o                th                                              e                     Navy                                                                                  .




                                                                              Specifically                                                                                                                                                                ,             th                                      e                           elemen                                                                                                                                               t                   manage                                                                                                                                                   r                  di                                                  d                            not                                                                   :




                                                                                                                                                                                        •                obtai                                                                                                                              n                           MD                                                                                  A                                   approva                                                                                                                                                      l                    fo                                                r                        th                                                     e             element'                                                                                                                                                s                   draf                                                                          t               SEMP                                                                                                                          ;




                                                                                                                                                                                        •                establis                                                                                                                                                                            h                       a                                pla                                                                    n                    t                                 o                      develo                                                                                                                                    p                             an                                              d                            implemen                                                                                                                                                                     t          informatio                                                                                                                                                                                            n




                                                                                                                                                                                                                                                 assuranc                                                                                                                                                        e                  requirement                                                                                                                                                                                                                                        s                  i                         n                             th                                                    e          softwar                                                                                                                            e                   developmen                                                                                                                                                                                                                        t        pla                                                                       n               o                        r




                                                                                                                                                                                                                                                  implemen                                                                                                                                                                           t           th                                                          e               Do                                                                          D                      Informatio                                                                                                                                                                                                                      n                     Technolog                                                                                                                                                                                  y                      Securit                                                                                                                               y




                                                                                                                                                                                                                                                 Certificatio                                                                                                                                                                                               n                             an                                                         d                      Accreditatio                                                                                                                                                                                                                                            n                           Proces                                                                                                            s                   (th                                                        e                       Securit                                                                                                                                y




                                                                                                                                                                                                                                                 Certificatio                                                                                                                                                                                               n                            an                                                           d                        Accreditatio                                                                                                                                                                                                                                         n                           Process                                                                                                                               )              fo                                          r                conductin                                                                                                                                                                                         g




                                                                                                                                                                                                                                                  informatio                                                                                                                                                                                 n                      technolog                                                                                                                                                                                                     y                       certificatio                                                                                                                                                                                                  n               an                                                        d                       accreditation                                                                                                                                                                                                                                 ;               an                                              d




                                                                                                                                                                                    •                    establis                                                                                                                                                                        h                       a                               net-ready                                                                                                                                                                                    ,         ke                                                            y                          performanc                                                                                                                                                                                                       e                   paramete                                                                                                                                                                        r                 (NR-KPP                                                                                                                                                             )           i                           n




                                                                                                                                                                                                                                             coordinatio                                                                                                                                                                                                        n                         wit                                                                      h                        th                                            e              Join                                                                                                     t                Staf                                                                                  f            an                                         d                  th                                            e                  Deput                                                                                                                  y                 Chie                                                                                            f                 o                                  f




                                                                                                                                                                                                                                             Nava                                                                                       l               Operation                                                                                                                                                                                                      s                    (Resources                                                                                                                                                                                                                        ,        Warfar                                                                                                                     e                   Requirements                                                                                                                                                                                                                                                ,                an                                                  d




                                                                                                                                                                                                                                             Assessments                                                                                                                                                                                                                                   )                 an                                                        d                         a                          n                     informatio                                                                                                                                                                                                                 n                    suppor                                                                                                                   t             pla                                                            n                      t                          o                   transitio                                                                                                                                                 n




                                                                                                                                                                                                                                             Bloc                                                                           k                           0                                        4                       capabilitie                                                                                                                                                                                              s                 effectivel                                                                                                                                                                                              y                     ont                                                           o                 1                                       8                    activ                                                                                           e                dut                                                                  y               Nav                                                                                   y




                                                                                                                                                                                                                                             ships                                                                                  .




                                                                     Thes                                                                  e           condition                                                                                                                                                            s                       occurre                                                                                                                                                          d                   becaus                                                                                                                                        e                      MD                                                                                                A                      di                                                    d               no                                           t           provid                                                                                                                        e                      explici                                                                                                                        t




                                                                         guidanc                                                                                                        e                fo                                       r                   coordinatin                                                                                                                                                                                                                    g                       SEMP                                                                                                                                s                         wit                                                                            h                       th                                            e                        element                                                                                                                              s                    an                                                d                  becaus                                                                                                                            e                   th                                                   e




                                                                     elemen                                                                                             t           manage                                                                                                                                      r                   believe                                                                                                                                                      d                   tha                                                                     t         th                                                 e                      elemen                                                                                                                                                 t                capabilit                                                                                                                                             y                   specificatio                                                                                                                                                                                                             n




                                                                         identifie                                                                                                          d                    th                                           e                   necessar                                                                                                                                                            y                          informatio                                                                                                                                                                                                           n                assuranc                                                                                                                                                                                  e          requirements                                                                                                                                                                                                                                  .




                                                                     Additionally                                                                                                                                                                                 ,          th                                         e                           MD                                                                                   A                                  di                                                   d                       no                                                      t          giv                                                                               e                th                                                            e                  elemen                                                                                                                  t                manage                                                                                                                                          r             sufficien                                                                                                                                                                      t




                                                                     guidanc                                                                                                           e                 o                           n                    system                                                                                                                                         s                engineerin                                                                                                                                                                                                          g                      activitie                                                                                                                                                                      s                    neede                                                                                         d                      t                           o                      suppor                                                                                                                         t           th                                            e




                                                                     transitionin                                                                                                                                                        g                        o                              f          elemen                                                                                                                                                      t                capabilitie                                                                                                                                                                                                          s            t                                  o                             operationa                                                                                                                                                                      l             use                                                                    .               A                                                     s              a                                 result                                                                                                        ,        MD                                                                   A




                                                                     wa                                  s                   no                                    t             abl                                                         e                    t                    o                 evaluat                                                                                                                                                    e                      th                                                e                     adequac                                                                                                                                                              y                              o                                        f            th                                              e                planne                                                                                                           d                        system                                                                                                                            s                 engineerin                                                                                                                                                                                  g




                                                                     fo                            r    th                                         e          Aegi                                                                                    s                      BM                                                                                 D                                Element                                                                                                                                                                   .                Further                                                                                                                                                               ,               MD                                                                                     A                         ha                                       d                 n                                       o                   assuranc                                                                                                                                                          e                      tha                                                              t            th                                         e




                                                                         informatio                                                                                                                                          n               an                                                      d                  informatio                                                                                                                                                                                                               n                         system                                                                                                                                          s                     wer                                                                                   e                        secur                                                                                     e                an                                                       d                  tha                                                             t               th                                           e                  elemen                                                                                                                                   t




                                                                     capabilit                                                                                                                  y                     woul                                                                                 d                        b                                                e                   full                                                                        y                       interoperabl                                                                                                                                                                                                                                             e                       wit                                                                    h                  othe                                                                      r             Do                                                                 D                             assets                                                                                                                .




Aegi   s        Ballisti                                                                                                 c              Missil                                                                                                                                               e                      Defens                                                                                                                                                                                                           e                            Elemen                                                                                                                                                                                                                                    t




           I            n       1996                                 ,            th                                 e            Nav                                                                        y               bega                                                                                   n                           developin                                                                                                                                                                                                     g                         a                             rapidl                                                                                                                     y                                deployabl                                                                                                                                                                   e                  an                                                      d                   mobil                                                                                                              e                    ballisti                                                                                                                           c




               missil                                   e   defens                                                                                        e                     capabilit                                                                                                                                                       y                       a                                    s                 th                                                e                   Nav                                                                                             y               Theate                                                                                                                                                   r                  Wid                                                                                    e               Program                                                                                                                                              .           I                                       n                     Januar                                                                                                                     y                         2002                                                                                ,




           th               e              Nav                       y                  Theate                                                                                                       r                Wid                                                                        e              Progra                                                                                                                                              m                                    becam                                                                                                                                e                  th                                                    e                     Aegi                                                                                                           s                    BM                                                                 D                      Elemen                                                                                                                                                  t        o                                   f               th                                    e                   MDA                                                                                                   .




           Th                          e         Aegi                                      s           BM                                                              D                             Elemen                                                                                                                                         t               i                            s               base                                                                                                d                   a                                 t                se                                        a                 an                                                            d                          i                                      s                  taske                                                                                         d              wit                                                           h                       destroyin                                                                                                                                                                        g                     ballisti                                                                                                                       c




           missile                                          s             i                    n            th                                     e          mid-cours                                                                                                                                                                                 e                    phase                                                                                                                       .               A                                                      s                    par                                                              t                o                                   f                th                                                         e                    MD                                                                          A                       Bloc                                                                                           k                  04                                                         ,        th                                          e                     Aegi                                                                                            s                 BM                                                                D




           Elemen                                               t             wil                                                 l        provid                                                                                                             e               th                                        e                           BMD                                                                                                                     S                        wit                                                                            h                      increase                                                                                                                                                                     d                       capabilitie                                                                                                                                                                               s               throug                                                                                                                      h                   thre                                                                            e                         planne                                                                                                      d




           incrementa                                                                                                l        developments                                                                                                                                                                                                                                       .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 9
    The first increment, B M D 3.0E, was deployed in September 2004 and provided a
    long-range surveillance and tracking capability on an Aegis destroyer designated
    as part of the M D A test bed. Increment B M D 3.0E also provided surveillance
    and tracking for the Ground-Based Missile Defense Element. The second
    increment, B M D 3.0, which has been available since May 2005, added a missile
    engagement capability using the Navy Standard Missile-3 on the Aegis cruiser
    test bed. The third increment, B M D 3.6, will integrate an anti-air warfare, self-

    defense capability. According to the "Single Acquisition Management Plan,"
    November 18, 2003 (the Single Acquisition Management Plan), the Navy plans to
    deploy Block 04 onto 18 operational Aegis ships. Aegis staff stated that Block 04
    expects to be functional in August 2006. The Aegis BMD Element plans to
    provide logistical support for these ships until sometime in FY 08, after which the
    Navy will provide logistical support.



Implementing Systems Engineering Documentation
  and Processes

    The DoD and the Director, Missile Defense Agency issue policy and guidance for
    elements to use in planning systems-engineering-related actions, such as
    formulating and approving the SEMP, establishing information assurance and
    Security Certification and Accreditation Process requirements, and coordinating
    the transition of BMDS capabilities with the Joint Chiefs of Staff (JCS) and the
    Deputy Chief of Naval Operations (Resources, Warfare Requirements, and
    Assessments). However, the element manager had not completed several
    documents and processes that were important to transition Block 04 capabilities
    to the Navy. Specifically, the element manager did not submit the draft SEMP for
    MDA review and approval; establish information assurance provisions in the
    software development plan; and establish a System Security Authorization
    Agreement (SSAA), an NR-KPP, and an information support plan.

    Approving the Draft S E M P . The "MDA Assurance Provisions," January 9,
    2004, requires elements to submit a SEMP to MDA for approval. Instead, the
    element manager coordinated the SEMP for approval within the element staff.
    Although the element manager did not comply with requirements of the MDA
    Assurance Provisions for forwarding the SEMP to MDA for approval, the MDA
    Assurance Provisions did not provide explicit guidance to the elements regarding
    who within the MDA would review and approve the SEMP. Specifically, the
    MDA Assurance Provisions did not state which MDA office should receive the
    SEMP or define the coordination process that supported the approval. According
    to the mission statement, the Systems Engineering Directorate has responsibility
    for planning and executing systems engineering, as well as overseeing element
    engineering; therefore, the MDA Assurance Provisions should have identified the
    Systems Engineering Directorate as the office responsible for reviewing and
    approving the SEMP.

    Establishing Requirements for Information Assurance and Security
    Certification and Accreditation. D o D Directives and Instructions require
    Defense agencies to include information on how to develop and implement


                                        10
information assurance requirements in the software development plan and how to
implement the Security Certification and Accreditation Process for information
technology certification and accreditation.

The element manager did not include the information on developing and
implementing information assurance requirements in the software development
plan as required by DoD Directive 8500.1, "Information Assurance," October 24,
2002, and DoD Instruction 8580.1, "Information Assurance in the Defense
Acquisition System," July, 9,2004, or implementing the Security Certification
and Accreditation Process for conducting information technology certification
and accreditation process in accordance with DoD Instruction 5200.40, "DoD
Information Technology Security Certification and Accreditation Process,"
December 20, 1997.

The element manager did not include a plan to develop and implement
information assurance requirements in the software development plan because she
believed that the information assurance requirements were identified in the
element capability specification of the development contract. However, the
element capability specification references information assurance requirements,
but it does not include information on how to develop and implement them. The
Technical Directorate staff acknowledged that the software development plan
lacked the information assurance provisions and they developed an information
assurance section for the next updated version of the software development plan.

The element manager did not implement the Security Certification and
Accreditation Process because she did not comply with the requirements in DoD
Instruction 5200.40. The information assurance manager recognized that the
element was not certified and accredited and began to complete the requirements
for the Security Certification and Accreditation Process phase 1, which includes
developing and completing the SSAA by December 2005. The phase 1 SSAA
documents that the program manager, the designated approval authority, and the
certification authority agreed on the method to implement security requirements.
The SSAA also describes system mission and security and data access policies.

Coordinating with the J C S and the Deputy Chief of Naval Operations
(Resources, W a r f a r e Requirements, and Assessments) to S u p p o r t Transition.
DoD Directive 5134.9 requires that the Director, Missile Defense Agency work
closely with the warfighter and the JCS to develop and integrate requirements into
control systems. Additionally, the Secretary of Defense memorandum, "Missile
Defense Program Direction," January 2, 2002 (the Secretary of Defense
Memorandum), requires the elements to enter the formal acquisition process at
Milestone C, Production and Deployment, as described in DoD
Instruction 5000.2, when they transition to the Services. Upon transition, the
elements must satisfy the requirements of DoD Directives and Instructions to
work together with JCS to establish an NR-KPP and an information support plan.
To establish an NR-KPP, the Military Departments must assess information
needs, information timeliness, information assurance, and net-ready attributes
required to exchange technical information and determine the effectiveness of the
exchange from the originator to the final recipient. The Military Departments use
the information support plan to manage, evaluate, and report on implementing
interoperability requirements.

                                     11
    The element manager did not coordinate with the JCS and the Deputy Chief of
    Staff for Naval Operations (Resources, Warfare Requirements, and Assessments),
    as required, to establish an NR-KPP and develop an information support plan.
    Initially, the Secretary of Defense Memorandum exempted MDA from the
    requirements of the Chairman Joint Chiefs of Staff (CJCS) Instruction 3170 series
    and the associated regulations that it references, including DoD Directive 4630.5,
    "Interoperability and Supportability of Information Technology and National
    Security Systems," May 5, 2004; DoD Instruction 4830.8, "Procedures for
    Interoperability and Supportability of Information Technology and National
    Security Systems," June 30, 2004; and the CJCS Instruction 6212,01 series before
    fielding element capabilities. However, the Secretary of Defense Memorandum
    also requires BMDS elements that are transitioning to the Services to enter the
    acquisition process at Milestone C: Production and Deployment. Therefore, when
    the Aegis BMD Element moves beyond the test bed ship and transitions the
    Block 04 capability to 18 Navy ships, the Secretary of Defense Memorandum will
    no longer exempt the element from the CJCS and DoD requirements.
    Specifically, when fielding the Aegis BMD Element capability to the Navy, the
    element manager will be subject to the requirements of Milestone C, which
    include establishing an NR-KPP and an information support plan. Additionally,
    MDA and the element manager did not follow DoD Directive 5134.9, which
    requires that the MDA coordinate with the JCS on integrating command and
    control capabilities to enable the JCS to advise the BMDS on supportability
    features.

    The element manager did not prepare an NR-KPP and an information support
    plan because the MDA did not provide clear guidance on the documentation and
    processes needed to complete and to meet the requirements of DoD policies for
    transitioning capabilities to operational use. Specifically, the Director, Missile
    Defense Agency did not provide the elements with an alternative acquisition
    process to replace the process defined in DoD Instruction 5000.2 and the
    guidance in the Defense Acquisition Guidebook.



Conclusion

    The MDA was not fully informed to evaluate the adequacy of the planned
    systems engineering for the element. Also, MDA had no assurance that the
    element information and information systems were secure and would be
    interoperable with other DoD assets when transitioned.

    To effectively evaluate the adequacy of the planned systems engineering, the
    element manager needs to coordinate the SEMP for approval with the appropriate
    MDA organizations. After MDA approves the SEMP, the document will provide
    a baseline for further systems engineering planning requirements for the element.

    The element manager needs to implement information assurance requirements to
    ensure the availability, integrity, authenticity, confidentiality, and nonrepudiation
    of the element's information and information systems. Not developing and
    implementing information assurance requirements in the software development
    plan for the element puts the system, and those connected to it, at risk of being

                                         12
    compromised. The element manager also needs to prepare and obtain approval of
    an SSAA to enter phase 2 of the Security Certification and Accreditation Process.

    To ensure that the element is interoperable with other DoD assets, the element
    manager needs to coordinate with the JCS and the Deputy Chief of Naval
    Operations (Resources, Warfare Requirements, and Assessments) to fully define
    and obtain certification for an NR-KPP, as required by CJCS
    Instruction 6212.01C. The NR-KPP will provide the measurable, testable, and
    calculable characteristics and performance metrics required for the timely,
    accurate, and complete exchange and use of information. MDA staff response to
    a discussion draft of this report stated that they recognized that an NR-KPP and
    an information support plan were required to support transitioning the Aegis
    BMD capability to the Navy, and that they would work towards their
    development.

    By coordinating an interoperability NR-KPP with the JCS, the element manager
    will be developing and submitting an information support plan, as required, to
    document information technology and national security system needs,
    dependencies, and interface requirements, and providing assurance that the
    element will be interoperable within the BMDS and with other Navy ships.


Recommendations, Management Comments, and Audit
  Response

    Redirected a n d Revised Recommendations. As a result of management
    comments, we redirected draft Recommendation B.2.d. to the Director, Missile
    Defense Agency to recognize that MDA, as the operator of the BMDS, should
    coordinate with JCS and renumbered it as Recommendation B . l . b .

    1. W e recommend t h a t the Director, Missile Defense Agency:

                a. Revise the "Missile Defense Agency Assurance Provisions,"
    J a n u a r y 9, 2004, to designate the a p p r o p r i a t e Missile Defense Agency
    organization to be responsible for coordinating and approving systems
    engineering m a n a g e m e n t plans for the Missile Defense Agency elements.

    M a n a g e m e n t Comments. The Executive Director, responding for the Director,
    Missile Defense Agency, concurred, stating that the MDA Safety, Quality, and
    Mission Assurance Directorate will update the MDA Assurance Provisions to
    designate the appropriate MDA organization responsible for coordinating and
    approving element SEMPs.

    Audit Response. In response to the final report, we request that the Director,
    Missile Defense Agency provide an estimated completion date for updating the
    M D A Assurance Provisions for the coordination and approval of element SEMPs.




                                           13
            b. Coordinate with Joint Chiefs of Staff Director for C o m m a n d ,
Control, Communications, and C o m p u t e r Systems Directorate and the
Deputy Chief of Naval O p e r a t i o n s (Resources, W a r f a r e R e q u i r e m e n t s , and
Assessments) to establish a net-ready, key performance p a r a m e t e r and an
information s u p p o r t plan to comply with requirements of the Secretary of
Defense M e m o r a n d u m , "Missile Defense P r o g r a m Direction,"
J a n u a r y 2, 2002, for transitioning the Aegis Ballistic Missile Defense
Element.

M a n a g e m e n t Comments. The Executive Director nonconcured, stating that
MDA, as the operator of the BMDS, should coordinate with JCS. He stated that
coordination with the JCS should occur at the MDA, rather than at the element
level, because DoD Directive 5134.9 requires the MDA Director to work closely
with the warfighter community and JCS to develop and integrate BMDS
command and control architecture. The Executive Director also stated that MDA
does not use an NR-KPP, but the Aegis BMD element manager was coordinating
with the Navy in the development of its command and control architecture.
Further, in his general comments on the draft report, he stated that providing the
Navy with some capabilities for Block 04 does not constitute transitioning
production to the Navy and therefore does not activate Milestone C requirements
to establish an information support plan with an NR-KPP. Specifically, the 2002
Secretary of Defense Memorandum states that the MDA elements will enter the
formal DoD acquisition cycle at Milestone C, concurrent with transferring
procurement responsibility to a Service.

 Audit Response. We recognize that M D A should coordinate with JCS and
redirected the recommendation. Although we also recognize that MDA does not
 use a NR-KPP, we disagree that the Aegis BMD Block 04 is not currently
transitioning to the Navy. The Executive Director's comment is based on the
Navy's not procuring the Aegis B M D Block 04 capability and, therefore,
 according to the requirements of the 2002 Secretary of Defense Memorandum, is
not activating acquisition Milestone C requirements. Milestone C requirements
 include developing an NR-KPP and information support plan. In fact, MDA and
the Navy are planning to move beyond Milestone C and into the operations and
support phase of the acquisition process for the Block 04 capability. Specifically,
the Aegis BMD Single Acquisition Management Plan, November 18, 2003, states
that the Navy plans to deploy the Aegis BMD capability onto 18 operational
Aegis ships. Additionally, MDA and the Navy plan for the Navy to begin
providing operations and support for the Block 04 capability on these ships
sometime in FY 2008. DoD Instruction 5000.2 defines Milestone C as
authorizing entry into low-rate initial production for major acquisition systems.
The DoD Instruction defines low-rate initial production as completing
manufacturing development to produce the minimum quantity necessary to
provide for successful completion of operational testing, establish an initial
production base, and permit an orderly increase in the production rate leading to
full-rate production. By fielding and maintaining the Aegis B M D capability on
 18 operational Navy ships, MDA met the intent of the DoD Instruction 5000.2
definition of low-rate initial production and the attainment of an initial
operational capability when the Navy begins providing operations and support for
the Block 04 capability in FY 2008.



                                           14
A draft MDA memorandum recognizes that MDA and the Navy need to start
planning for the transition of the Aegis B M D Block 04 capability, which, if
implemented, would meet the intent of the recommendation. Specifically, the
draft MDA memorandum, "Transition of Aegis BMD Block 04 System" (the
Transition Memorandum), states that the transition of Aegis BMD Block 04 to the
Navy will consist of transitioning operations and support responsibilities. The
draft Transition Memorandum further states that the transition will occur when
the Aegis B M D is installed on all 18 planned Navy ships and successfully
completes planned test events that support the transfer of operational and support
responsibilities to the Navy. MDA projects that the transition of Aegis BMD
Block 04 operations and support to the Navy will occur during FY 2008. To
support the operational and support transition, the draft Transition Memorandum
states that MDA will provide a number of documents, including the information
support plan. CJCS Instruction 6212.01C requires that the information support
plan include a NR-KPP. Therefore, we request that the Director, Missile Defense
Agency reconsider his position on the draft recommendation and respond to the
redirected recommendation in the final report.

2. W e recommend t h a t the element m a n a g e r for the Aegis Ballistic Missile
Defense Element:

          a. Coordinate with the Joint Chiefs of Staff Director and obtain
approval of the draft Aegis Ballistic Missile Defense Systems Engineering
M a n a g e m e n t Plan from the Missile Defense Agency.

M a n a g e m e n t Comments. The Executive Director, responding for the Aegis
BMD element manager, concurred, stating that the Aegis BMD SEMP should be
coordinated with the BMDS System Engineer to integrate the element systems
engineering process into the BMDS. The Executive Director further stated that
MDA keeps informed of the element systems engineering status through various
reviews.

Audit Response. In response to the final report, we request that the Aegis BMD
element manager provide an estimated completion date for coordinating and
obtaining approval of the Aegis BMD SEMP.

       b. Develop and include information assurance requirements in the
Software Development Plan t h a t meet the requirements of DoD
Directive 8500.1, "Information Assurance," October 24, 2004, to include
information assurance requirements in the design and acquisition of all
information systems.

M a n a g e m e n t Comments. The Executive Director concurred, stating that the
Aegis B M D element manager will address information assurance requirements in
the software development plan as well as in the element capability specification
for Block 06. The Executive Director further stated that the Aegis BMD element
manager, the M D A System Engineering Directorate, and the prime contractor will
work on delineating information assurance requirements.




                                     15
Audit Response. In response to the final report, we request that the Aegis B M D
element manager provide an estimated completion date for including information
assurance requirements in the Block 06 software development plan.

       c. Complete the DoD Information Technology Security Certification
and Accreditation Process, including producing a System Security
Authorization Agreement for the element to become certified and accredited
in accordance with DoD Instruction 5200.40, "DoD Information Technology
Security Certification and Accreditation Process," December 20, 1997.

M a n a g e m e n t Comments. The Executive Director concurred, stating that the
Aegis BMD SSAA is in final coordination. He commented that the Aegis B M D
information assurance requirements are managed consistent with the DoD 8500
series of directives, and that element SSAAs will be combined into a single
BMDS SSAA. The Executive Director stated that the DoD 8500 series of
directives and instructions was an improvement over the DoD 5200 series of
directives and instructions because the new series provided specific information
assurance controls for Mission Assurance Category I systems that M D A uses for
compliance tracking and risk management. He stated that MDA uses a tailored
Security Certification and Accreditation Process that is based on requirements in
DoD Manual 8580.1-M, "DoD Information Technology Security Certification
and Accreditation Process Application Manual," July 31, 2000.

Audit Response. In response to the final report, we request that the Aegis BMD
element manager provide estimated dates for completing the SSAA and the
Security Certification and Accreditation Process.




                                    16
            C. Systems Engineering for the Terminal
               High Altitude Area Defense Element
           The THAAD element manager followed many of the system engineering
           processes prescribed in the Defense Acquisition Guidebook. Of special
           note, the THAAD element manager aggressively developed the
           capabilities production document with the NR-KPP for Block 06 and the
           information support plan 2 years before the scheduled transition of the
           THAAD to the Army. However, the element manager did not complete a
           systems engineering process that is important to system planning and
           development. Specifically, the element manager did not complete phase I
           of the Security Certification and Accreditation Process in a timely manner.
           Additionally, MDA policy was unclear concerning the required level of
           approval for the THAAD configuration management plan. These
           conditions occurred because the element manager had not allocated
           funding to comply with established policies for information assurance and
           system security. Moreover, MDA did not give the element managers
           sufficient guidance on procedures for approving configuration
           management plan to MDA for approval. As a result, the M D A had no
           assurance that the THAAD information and information systems were
           secure and was not able to fully evaluate the adequacy of the planned
           engineering for the element.



Terminal High Altitude Area Defense Element

    The THAAD system development started in 1992 with the award of the contract
    for the Program Definition and Risk Reduction phase of the acquisition process,
    which includes activities now performed in the early part of the technology
    development phase as defined in DoD Instruction 5000.2. These activities
    include early operational assessments as necessary to reduce technology,
    manufacturing, and support risks before the next decision point. The THAAD
    Element is a ground-based missile defense system that is being developed to
    protect forward-deployed military forces, population centers, and civilian assets
    from short- and medium-range ballistic missile attacks.

    THAAD consists of six principal components: missile round, launcher, command
    and control/battle management and communications, radar, peculiar support
    equipment, and non-embedded training devices. The THAAD missile provides a
    non-nuclear, hit-to-kill, missile intercept capability for engaging and destroying
    theater ballistic missiles in and above the earth's atmosphere.

    The THAAD development is divided into blocks (Block 2004, Block 2006, and
    Block 2008). The development of each block incrementally increases the
    element's capability. The THAAD Block 04 provides a THAAD Element
    capable of defense against short- and medium-range ballistic missiles and
    provides homeland defense against different threats. Block 06 builds on THAAD
    Block 04, expanding the capabilities of the THAAD Element against increasingly
    complex targets with a tactical missile configuration. Block 08 includes two

                                        17
                      developmen                                                                                                                                                                                    t               aspects                                                                                                                                        .                First                                                                                                          ,   flight-testin                                                                                                                                                                                                                      g                wil                                                                                  l          determin                                                                                                                                                                                                e                 th                                                       e                capabilit                                                                                                                                                          y                    o                                       f               th                                                   e




                  THAA                                                                                  D                                  Elemen                                                                                                                                                         t            agains                                                                                                                                             t        th                                      e                        ful                                                 l               spectru                                                                                                                                           m                                          o                                     f              short                                                                                                                      -                    an                                              d                         medium-rang                                                                                                                                                                                                                                                        e




                      adversaria                                                                                                                                      l               capabilities                                                                                                                                                                                                                                        .                  Second                                                                                                                                 ,               THAA                                                                                                                                       D                                 capabilit                                                                                                                                                                                               y                        growt                                                                                                                   h                     wil                                                          l            enhanc                                                                                                                                                   e




                      survivabilit                                                                                                                                                              y                              an                                           d                            deploymen                                                                                                                                                                                                                  t                o                              f            th                                           e                        weapo                                                                                                                                         n                   system                                                                                                                                                                  .




System                                             s                 Engineerin                                                                                                                                                                                                                                                                                        g                                         Documentatio                                                                                                                                                                                                                                                                                                                                                                                            n                             an                                                                                             d                                           Processe                                                                                                                                                                                                                                           s




                  A                      s             discusse                                                                                                                                     d                               i                   n                   findin                                                                                                                            g                                   B                                     ,           th                                      e                     element                                                                                                                                               s                     follo                                                                                                    w                            CJC                                                                                                                  S                            an                                                   d                   MD                                                                                     A                     polic                                                                                                             y                    an                                                          d




                      guidanc                                                                                               e                   fo                                                      r                     plannin                                                                                                                                          g                            an                                                                d             executin                                                                                                                                                   g                        systems-engineering-relate                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           d                        action                                                                                                                              s                    i                                n




                      suppor                                                                        t               o                                    f            transitionin                                                                                                                                                                                                                                   g                                capabilitie                                                                                                                                                                         s                t                          o                            th                                               e                    Services                                                                                                                                                                                            .           Althoug                                                                                                                                                                         h                th                                              e                    elemen                                                                                                                                                      t




                      manage                                                                                            r                 ha                                                        d                           develope                                                                                                                                                                                 d                             document                                                                                                                                                                       s            definin                                                                                                                                                       g                       capabilitie                                                                                                                                                                                                                      s                    an                                                         d                     informatio                                                                                                                                                                                       n                        suppor                                                                                                               t




                  requirement                                                                                                                                                                                   s                       fo                                  r                 transitio                                                                                                                                                                           n                  t                     o                        th                                      e                       Army                                                                                                                  ,           h                                      e                       ha                                                    d                     no                                                                         t                complete                                                                                                                                                                                d                phas                                                                                           e                       1                                     o                              f                th                                                   e




                      Securit                                                                           y                           Certificatio                                                                                                                                                                                                                  n                         an                                                                        d                 Accreditatio                                                                                                                                                                                                                        n                         Proces                                                                                                                                          s               i                                     n                                a                                   timel                                                                                                      y                          manner                                                                                                                                        .




                  Additionally                                                                                                                                                                                             ,                 MD                                                                         A                                 polic                                                                                                                   y                  wa                                                            s              unclea                                                                                                                            r                 concernin                                                                                                                                                                                                       g                                 th                                                      e                require                                                                                                                                  d                leve                                                                                          l            o                                     f            approva                                                                                                                               l




                      fo                     r         th                         e               THAA                                                                                                                                             D                            configuratio                                                                                                                                                                                                                                        n                      managemen                                                                                                                                                                                                                                     t                   plan                                                                                         .




                  Definin                                                                                               g                      Capabilitie                                                                                                                                                                                                                                   s                           an                                                             d                 Informatio                                                                                                                                                                                                                  n                       Suppor                                                                                                                                                                           t                Requirements                                                                                                                                                                                                                                                                                               .        A                                                             s                discusse                                                                                                                                            d




                  i        n             finding                                                                                                         B                                                      ,              Do                                                            D                              polic                                                                                                                        y                    require                                                                                                                           s               tha                                                            t               th                                                  e                     element                                                                                                                                                                        s                        ente                                                                                      r              th                                                       e                forma                                                                                               l                    acquisitio                                                                                                                                                                                   n




                  proces                                                                      s                 a                                    t           Mileston                                                                                                                                                                            e                 C                                                         ,                    Productio                                                                                                                                                                 n             an                                                               d                      Deployment                                                                                                                                                                                                                                                                     ,           whe                                                                                   n                            the                                                        y                    transitio                                                                                                                                                              n                           t                            o                   th                     e




                  Services                                                                                                            .             Upo                                                                                                  n                  transition                                                                                                                                                                                                  ,           th                                          e                  element                                                                                                                                                  s                  mus                                                                                            t                satisf                                                                                                                        y                           th                                           e                    requirement                                                                                                                                                                                                                           s                 o                                 f                th                                                    e               Do                                             D




              Directive                                                                                                                             s                an                                                                  d             Instruction                                                                                                                                                                                                                      s                tha                                                             t        requir                                                                                                                   e                     Militar                                                                                                                                            y                      Department                                                                                                                                                                                                                                                      s                 an                                          d                         Do                                                                     D                                agencie                                                                                                                             s




              t            o             coordinat                                                                                                                                                          e                       wit                                                              h                     th                                              e                            JC                                                                    S                 t                      o                    establis                                                                                                                                      h                         a                                     capabilit                                                                                                                                                                               y                             productio                                                                                                                                                                                            n                documen                                                                                                                                                                            t            wit                                                                           h                 a            n




           NR-KP                                                                                            P                             an                                                            d                           a                           n                   informatio                                                                                                                                                                                                           n                 suppor                                                                                                                                  t           plan                                                                                              .




                                                                                                                Capabilit                                                                                                                                                                                     y                     Productio                                                                                                                                                                                                             n                  Documents                                                                                                                                                                                                                                               .      Th                                                                        e                               elemen                                                                                                                                                       t           manager                                                                                                                                                          ,                i                            n




              partnershi                                                                                                                                         p                    wit                                                                           h                   th                                               e                  Arm                                                                                                               y             Ai                                                        r            Defens                                                                                                                              e                         Artiller                                                                                                                                                    y                    School                                                                                                                                                               ,            develope                                                                                                                                                                   d                    th                                                     e




           capabilitie                                                                                                                                               s                    documen                                                                                                                                                                                  t                t                                    o                      formall                                                                                                                         y                        stat                                                                      e                        th                                             e                         require                                                                                                                                                    d                                capabilities                                                                                                                                                                                                               .




                                                                                                            Informatio                                                                                                                                                                                                                   n                   Suppor                                                                                                                                                                     t                 Plan                                                                                     .                   Th                                                                         e                     elemen                                                                                                                                                    t                   manage                                                                                                                                                               r                    develope                                                                                                                                                                 d                        th                                                  e




           THAA                                                                                    D                                  Elemen                                                                                                                                                     t                Informatio                                                                                                                                                                                                        n                         Suppor                                                                                                                                   t                Pla                                                                          n                           t                         o                   provid                                                                                                                                                       e                   th                                             e                   Army                                                                                                              ,        th                                                 e                    JCS                                                                                      ,               an                                            d            th                           e




           Offic                                                             e        o                                         f              th                                               e                         Secretar                                                                                                                                                          y                                o                                      f             Defens                                                                                                                            e               planner                                                                                                                                                      s                       wit                                                                 h                    a                                             descriptio                                                                                                                                                                                                      n                 o                             f                    th                                     e                            THAA                                                                                                                                               D




              Elemen                                                                                        t               an                                                        d                                 informatio                                                                                                                                                                                                            n                   technolog                                                                                                                                                                        y                         needs                                                                                                                               ,               objectives                                                                                                                                                                                                         ,                an                                                    d                            interfac                                                                                                                                         e




           requirements                                                                                                                                                                                                         .




           Completin                                                                                                                                                              g                             Phas                                                                                                    e                    1                                         Securit                                                                                                                                                  y                      Certificatio                                                                                                                                                                                                                                      n                  an                                                                d                               Accreditatio                                                                                                                                                                                                                                                         n                         Requirements                                                                                                                                                                                                                                                                      .




          A                          s           discusse                                                                                                                                 d                               i                        n                    findin                                                                                                                          g                            B                                            ,         Do                                                             D                        Instructio                                                                                                                                                                                       n                           5200.4                                                                                                                                                         0                        define                                                                                                                             s                     th                                      e            proces                                                                                                                                  s                fo                                                             r




           conductin                                                                                                                                         g                informatio                                                                                                                                                                                                                n                        technolog                                                                                                                                                                                     y              certificatio                                                                                                                                                                                                                     n                      an                                                                            d                        accreditation                                                                                                                                                                                                                                         .           Th                                                                          e                    Do                                                                              D




          Instructio                                                                                                                                 n                    require                                                                                                                                               s                tha                                                                             t                    phas                                                                              e                     I                     ,           Definition                                                                                                                                                                                                   ,               o                                      f          th                                                     e                     Securit                                                                                                                                                    y                            Certificatio                                                                                                                                                                                                       n                     an                                                                 d




         Accreditatio                                                                                                                                                                                       n                            Proces                                                                                                                        s                        i                                    s                       complete                                                                                                                                                      d              befor                                                                                                                 e                    beginnin                                                                                                                                                                                                    g                            syste                                                                                                 m                                    development                                                                                                                                                                                                                                               .




         Phas                                                            e        1                                 consist                                                                                                                                         s               o                                  f                 documentin                                                                                                                                                                                                                           g                  th                                           e                        syste                                                                                                   m                                              mission                                                                                                                                                                        ,                environment                                                                                                                                                                                                                              ,           an                                                             d




         architectur                                                                                                                                                  e                     t                                       o             identif                                                                                                                          y                             securit                                                                                                                                  y                  requirement                                                                                                                                                                                                                                             s            an                                                      d                           level                                                                                                                 s                 o                                    f               effor                                                                               t             necessar                                                                                                                                                                              y                        t                       o




          achiev                                                                          e                 securit                                                                                                                                         y                   certificatio                                                                                                                                                                                                                   n               an                                                       d                       accreditation                                                                                                                                                                                                                                                       .




         Althoug                                                                                                        h                      th                                                   e                           THAA                                                                                                                              D                                         progra                                                                                                                              m                             bega                                                                                             n                   i                                  n                       1992                                                                                                         ,            th                                                    e                         elemen                                                                                                                                                 t                manage                                                                                                                                      r                    ha                                                        d                  onl                                                                           y                a




         draf                                                 t       SSA                                                                                A                             tha                                                                          t       wa                                                                   s                no                                                                          t              complete                                                                                                                                                          d              o                                       r                certifie                                                                                                                                                d                   b                                          y                             eithe                                                                                                             r                th                                                   e                   designate                                                                                                                                                                      d                    approvin                                                                                                                                               g




         authorit                                                                                           y                         (MDA                                                                                                                                      )                o                                   r               th                                                      e                           certifyin                                                                                                                                          g                           authorit                                                                                                                                                         y                           (Deput                                                                                                                                                         y                        fo                                                  r                Security                                                                                                                                                       ,        Intelligence                                                                                                                                                                                                                                ,




         an                              d                  Specia                                                                                                        l           Programs)                                                                                                                                                                                                                  .               Althoug                                                                                                                                                         h                        th                                             e                draf                                                                                   t               SSAA                                                                                                                                     ,               addresse                                                                                                                                                                              d                       Securit                                                                                                                                      y




         Certificatio                                                                                                                                                         n                             an                                                          d                    Accreditatio                                                                                                                                                                                                                                           n                   Proces                                                                                                                             s                     areas                                                                                                             ,                suc                                                                        h                                a                                         s                Syste                                                                                                              m                              Capabilities                                                                                                                                                                                                                                  ,




         Syste                                                               m                     Criticality                                                                                                                                                                                                     ,            an                                                      d                            Lif                                                                    e                  Cycl                                                                                         e                   o                              f               th                                                 e                       System                                                                                                                                              ,               i                                     t                   wa                                                              s                 no                                                            t               complet                                                                                                                                              e                       becaus                                                                                                                                     e                th                        e




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        11                88
                                     elemen                                                                                   t               manage                                                                                                                                                                     r         di                                                      d                             no                                                        t            allocat                                                                                                                     e                    fund                                                                                             s               t                           o                        implemen                                                                                                                                                                                   t       Securit                                                                                                                                   y                    Certificatio                                                                                                                                                                                                 n               an                                                   d




                                   Accreditatio                                                                                                                                                                                                   n                  Proces                                                                                                                                              s                   requirements                                                                                                                                                                                                                                     .




                                        Configuratio                                                                                                                                                                                                                 n                       Managemen                                                                                                                                                                                                                                                                   t             Plan                                                                                       .                Th                                                                             e                   MD                                                                               A                              Assuranc                                                                                                                                                                               e                    Provision                                                                                                                                                             s                  establishe                                                                                                                                                          d




                                        informatio                                                                                                                                                    n                         assuranc                                                                                                                                                                                     e                   requirement                                                                                                                                                                                                             s                        fo                                                  r               developin                                                                                                                                                                                  g                          an                                                  d                    maintainin                                                                                                                                                                                         g                  a




                                   configuratio                                                                                                                                                                                              n                  managemen                                                                                                                                                                                                                                         t            plan                                                                                     .        Th                                                                         e                    pla                                                                  n                        shoul                                                                                                      d                    describ                                                                                                                                           e                 ho                                               w                               configuratio                                                                                                                                                                                                        n




                                   managemen                                                                                                                                                                                             t             i                      s                   accomplishe                                                                                                                                                                                                                                          d                         an                                              d                    ho                                                         w                                    consistenc                                                                                                                                                                                           y                          amon                                                                                                          g                     produc                                                                                                                   t                definition                                                                                                                                                                  ,




                                     produc                                                                       t                   configuration                                                                                                                                                                                                                                                                                      ,           an                                                   d                configuratio                                                                                                                                                                                                                           n                       managemen                                                                                                                                                                                                                           t             record                                                                                                                      s               i                       s               achieve                                                                                                                                d                         an                                             d




                                     maintaine                                                                                                                                       d                         throughou                                                                                                                                                                                                                     t            applicabl                                                                                                                                                              e                    phase                                                                                                                   s                   o                                     f                 th                                   e                  product'                                                                                                                                                            s                 life                                                                .       Althoug                                                                                                                                                        h                   th                                              e




                                   elemen                                                                                 t                   manage                                                                                                                                                                 r             ha                                                              d                             develope                                                                                                                                                                 d                 an                                                    d                         maintaine                                                                                                                                                                                     d                       a                                  configuratio                                                                                                                                                                                                               n                    managemen                                                                                                                                                                                                              t




                                   plan                                             ,       "THAA                                                                                                                                                                    D                             Developmen                                                                                                                                                                                                                                                      t                 Progra                                                                                                                      m                                    Configuratio                                                                                                                                                                                                                                   n                 Managemen                                                                                                                                                                                                                            t               Plan,                                                                                              "




                                   Januar                                                                     y                           27                                                                   ,                2003                                                                                               ,                whic                                                                                                          h                    addresse                                                                                                                                                        d                 essentia                                                                                                                                                                l             configuratio                                                                                                                                                                                                                     n                       managemen                                                                                                                                                                                                          t           areas                                                                                            ,            th                            e




                                   MD                                           A                 Assuranc                                                                                                                                                                                               e                    Provision                                                                                                                                                                                                s               wer                                                                       e                    unclea                                                                                                                              r               concernin                                                                                                                                                                                  g                 th                                                        e              appropriat                                                                                                                                                                                 e            leve                                                                                 l            o                        f




                                   approva                                                                                                    l             fo                                                          r                        th                                           e              plan                                                                                                    .                   Specifically                                                                                                                                                                                                                ,           th                                                       e                    MD                                                                                      A                       Assuranc                                                                                                                                                                              e                    Provision                                                                                                                                                                     s                requir                                                                                                           e            tha                                                         t




                                   th                  e           cognizan                                                                                                                                                                            t        MD                                                                                          A                             2-lette                                                                                                                              r               manage                                                                                                                                              r             approv                                                                                                                                              e            th                                                  e               elemen                                                                                                                                        t                configuratio                                                                                                                                                                                                          n




                                   managemen                                                                                                                                                                                         t                plans                                                                                                           .           MD                                                                                                       A                      ha                                                             s             2-Iette                                                                                                                       r            manager                                                                                                                                                                 s                   a                              t               bot                                                              h                  th                                                   e             MD                                                                         A                           an                                                   d                     th                                               e




                                 elemen                                                                               t                   levels                                                                                                                                  .               Base                                                                                                               d                           o                                 n                  th                                               e                     element-specifi                                                                                                                                                                                                                                                                             c                 natur                                                                                                     e                o                                         f                th                                           e             configuratio                                                                                                                                                                                                           n




                                   managemen                                                                                                                                                                                     t                    plan                                                                                      ,               th                                               e                           MD                                                                           A                                Assuranc                                                                                                                                                                           e                   Provision                                                                                                                                                                                s                     shoul                                                                                                     d                         specif                                                                                                 y                tha                                                               t              th                                           e                     elemen                                                                                                            t




                                 manage                                                                                               r                 i                                s                    th                                                 e                    final                                                                                           approva                                                                                                                                                              l             authorit                                                                                                                                                y                        fo                                              r                elemen                                                                                                                                 t                  configuratio                                                                                                                                                                                                           n                       managemen                                                                                                                                                                                                                t




                                 plans                                                       .




 Conclusio                                                                                                n




                                 MD                                         A                    wa                                                                         s                unabl                                                                                                                       e              t                                 o                    full                                                                            y                     evaluat                                                                                                                                 e                  th                                                   e                    adequac                                                                                                                                                    y                        o                                  f                   th                                       e                     planne                                                                                                                      d                   syste                                                                                           m




                                 engineerin                                                                                                                                                       g                     fo                                                   r                th                                                    e                     THAA                                                                                                                                        D                                Element                                                                                                                                                       .               Th                                                                            e                   lac                                                     k                      o                                    f                 a                           certifie                                                                                                                             d               SSA                                                                                               A                              an                                              d               approve                                                                                                                                 d




                                 Securit                                                                          y                               Certificatio                                                                                                                                                                                                                                 n                             an                                                        d                   Accreditatio                                                                                                                                                                                                                               n                  Proces                                                                                                                               s                   expose                                                                                                                                 s                 th                                           e                 syste                                                                                         m                                 t                        o




                              unnecessar                                                                                                                                                                  y                      ris                                                               k                     an                                                       d                        delay                                                                                                           s                   i                             n                 definin                                                                                                                               g                         syste                                                                                                     m                         securit                                                                                                                                  y                       requirements                                                                                                                                                                                                                        .              Also                                                                                                ,   a                                     n




                                 approve                                                                                                  d                         SSA                                                                                                          A                           i                              s                        necessar                                                                                                                                                              y                   t                              o               sho                                                                     w                                  tha                                                                  t               th                                                e              Director                                                                                                                                                     ,             Missil                                                                                                                e                   Defens                                                                                                                         e                Agenc                                                                                                                      y




                              an                           d          th                              e                   elemen                                                                                                                                                         t             manage                                                                                                                                                              r                   hav                                                                           e                agree                                                                                                    d                     o                                    n                   critica                                                                                                                     l           schedule                                                                                                                                                                   ,              budget                                                                                                               ,          security                                                                                                                                              ,




                                 functionality                                                                                                                                                                                               ,             an                                                    d                     performanc                                                                                                                                                                                                                                e                objectives                                                                                                                                                                                          .                Further                                                                                                                                                   ,          th                                          e                  absenc                                                                                                                           e               o                                f                  clea                                                                       r           polic                                                                                        y                     fo                                   r




                                 approva                                                                                              l             o                                             f                th                                                    e                   elemen                                                                                                                                                       t       configuratio                                                                                                                                                                                                                     n                         managemen                                                                                                                                                                                                                           t                   pla                                                             n                   weaken                                                                                                                                        s                MD                                                                             A                           elemen                                                                                                                              t




                              oversight                                                                                                                             ,               coordination                                                                                                                                                                                                                                                              ,       integration                                                                                                                                                                                        ,            an                                                              d                   control                                                                                                                                         .




Recommendations                                                                                                                                                                                                                                                                                                                                                 ,              Managemen                                                                                                                                                                                                                                                                                                                                         t                        Comments                                                                                                                                                                                                                                                                                          ,                an                                                                           d                             Audi                                                                                                                                  t




                  Respons                                                                                                                 e




                            Delete                                                                        d                       Recommendations                                                                                                                                                                                                                                                                                                                                                                                                  .           A                                                    s                a                           resul                                                                                                    t               o                                    f                managemen                                                                                                                                                                                                                    t            comment                                                                                                                                                                   s               an                                                 d




                            additiona                                                                                                                           l               review                                                                                                                                         ,            w                                                  e                         delete                                                                                                                d                        draf                                                                      t             Recommendation                                                                                                                                                                                                                                                                                                                                s                   C.2.b                                                                                                       .       an                                                d                       C.2.c                                                                                              .           which                                                                                                             ,




                             respectively                                                                                                                                                                                   ,                    recommende                                                                                                                                                                                                                                                   d                tha                                                                    t        th                                           e                    THAA                                                                                                                                              D                                elemen                                                                                                                                t           manage                                                                                                                                                r           coordinat                                                                                                                                                              e                     an                                            d




                             obtai                                                      n           MD                                                                                            A                                          approva                                                                                                                                                         l                       o                                 f               th                                          e                   draf                                                                      t           configuratio                                                                                                                                                                                                                              n                      managemen                                                                                                                                                                                                                           t           pla                                                               n                an                                                 d                      revis                                                                                       e               th                                              e




                            softwar                                                                               e                           developmen                                                                                                                                                                                                                                                     t                       pla                                                              n                   fo                                                     r            THAA                                                                                                                                   D                             t                          o                        includ                                                                                                                     e              verificatio                                                                                                                                                                                  n                     o                                   f               contracto                                                                                                                                                                 r




                            processes                                                                                                                                   ,            procedures                                                                                                                                                                                                                                  ,           staffing                                                                                                                                     ,         an                                                  d                 trainin                                                                                                                                          g                         relatin                                                                                                                 g                   t                        o                         softwar                                                                                                                                 e               development                                                                                                                                                                                                                             .




                             W                         e           delete                                                                                                       d                         Recommendatio                                                                                                                                                                                                                                                                                                                    n                           C.2.b                                                                                                 .        becaus                                                                                                                                                e                  w                                    e                     agree                                                                                                     d                      wit                                                                      h             th                                                e                Executiv                                                                                                                                                            e




                            Director'                                                                                                                       s                       comment                                                                                                                                                                                           s                o                                             n                Recommendatio                                                                                                                                                                                                                                                                                                   n                       C.l                                                                      .           tha                                                                   t                 th                                       e                     THAA                                                                                                                              D                         elemen                                                                                                                             t         manage                                                                                                                                  r




                            wa                                 s      th                              e               appropriat                                                                                                                                                                                                                        e                     final                                                                                            approva                                                                                                                                                   l         authorit                                                                                                                                                            y                        fo                                         r             th                                            e                         configuratio                                                                                                                                                                                                           n                       managemen                                                                                                                                                                                                               t




                            plan                                            .           O                                         n                         Recommendatio                                                                                                                                                                                                                                                                                                                                 n                C.2.c                                                                                                             ,             w                                                e                    agree                                                                                                                d                  wit                                                                  h                 th                                                e                 Executiv                                                                                                                                                            e                   Directo                                                                                                                            r                   tha                                                      t               th                             e




                            section                                                                           s                   i                                 n                        th                                                        e              softwar                                                                                                                                                            e                    developmen                                                                                                                                                                                                                  t                pla                                                                    n                   o                                         n                    softwar                                                                                                                                  e                    qualit                                                                                                             y                     assurance                                                                                                                                                                    ,




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  1                      9
corrective actions, and process training planning, when combined with the
provisions of the THAAD contract DASG60-00-C-0072, which require the
contractor to report software metrics, did adequately address the THAAD element
manager's responsibilities for verifying contractor processes, procedures, staffing,
and training relating to software development.

1. W e recommend t h a t the Director, Missile Defense Agency revise the
"Missile Defense Agency Assurance Provisions," J a n u a r y 9, 2004, to
designate the a p p r o p r i a t e organization within the Missile Defense Agency to
coordinate and approve configuration management plans for the Missile
Defense Agency elements.

Management C o m m e n t . The Executive Director, responding for the Director,
Missile Defense Agency nonconcurred, stating that the MDA Assurance
Provisions require that the element's configuration management plan be approved
by the cognizant MDA 2-Ietter manager. The Executive Director stated that the
THAAD element manager was the cognizant 2-letter manager, and that the
element manager's approval met M D A requirements.

Audit Response. The Executive Director's comments were not responsive.
While we agree that the THAAD element manager is the appropriate authority to
approve the configuration management plan, the Director, Missile Defense
Agency needs to revise the "Missile Defense Agency Assurance Provisions,"
January 9, 2004, to clearly define that approval authority. MDA 2-letter
managers exist at MDA and at the elements. If the element manager is the
appropriate 2-letter manager for approving element configuration management
plans, the Missile Defense Agency's Assurance Provisions should clearly define
this responsibility. We request that the Director, Missile Defense Agency
reconsider his position and provide comments in response to the final report.

2. We recommend t h a t the element m a n a g e r for the Terminal High Altitude
Area Defense Element complete phase 1 of the Defense Information
Technology Security Certification and Accreditation Process to include an
approved System Security and Authorization Agreement.

Management Comments. The Executive Director concurred, stating that, in
November 2005, the THAAD element manager submitted a draft SSAA to the
MDA designated approving authority and certification authority for coordination.
The element SSAA for THAAD will be approved before the end of FY 2006.




                                     20
                                                               D                              .               System                                                                                                                                                                                                                                                                 s                            Engineerin                                                                                                                                                                                                                                                                                                                                                                                         g                                                 fo                                                                                                r                              th                                                                                  e                               Airborn                                                                                                                                                                                                                                                                                e




                                                                                                                                                  Lase                                                                                                                                                     r                            Elemen                                                                                                                                                                                                                                                                            t




                                                               Althoug                                                                                                       h                     th                                                  e                   AB                                                                   L                                elemen                                                                                                                                          t                    manage                                                                                                                                                    r         (th                                                                      e                 elemen                                                                                                                                                             t               manager                                                                                                                                                    )                 followe                                                                                                                                                           d




                                                               man                                               y               o                                   f            th                                            e                     system                                                                                                                                      s               engineerin                                                                                                                                                                                                   g                         processe                                                                                                                                                                            s                     describe                                                                                                                                                                      d                        i                         n                  th                                      e                     Defens                                                                                                                                            e




                                                               Acquisitio                                                                                                                                               n                       Guidebook                                                                                                                                                                                                           ,        h                                          e                        di                                          d                no                                                                  t          complet                                                                                                                                                                        e                        severa                                                                                                                         l                document                                                                                                                                                                         s                    an                                                          d




                                                               processe                                                                                                                s               tha                                                                 t            ar                                          e                   importan                                                                                                                                                                                 t            t                         o                 syste                                                                                                     m                                      plannin                                                                                                                                                                  g                        an                                                        d                    development                                                                                                                                                                                                                                    .




                                                               Specifically                                                                                                                                                                     ,          th                                                      e            elemen                                                                                                                                          t           manage                                                                                                                                                            r               di                                              d                       not                                                                            :




                                                                                                                                                                         •                 updat                                                                                                                                        e                   th                                                        e                    199                                                                              6                         Singl                                                                                                       e                     Acquisitio                                                                                                                                                                                                             n                        Managemen                                                                                                                                                                                                                                t            Pla                                                                    n                    an                                                                   d             th                                            e




                                                                                                                                                                                                                                                199                                                            7                SEM                                                                                                           P                     t                       o                           reflec                                                                                                       t                   th                                                 e                 change                                                                                                                                                             s             tha                                                                          t               ha                                                d                    occurre                                                                                                                               d                         i                          n                            th                                                      e




                                                                                                                                                                                                                                        AB                                                         L                           Element'                                                                                                                                                                             s                (th                                                              e                       element                                                                                                                                                          )                overal                                                                                                                                           l           technica                                                                                                                                                           l        approach                                                                                                                                                                                  ,




                                                                                                                                                                                                                                        system                                                                                                               s                            engineerin                                                                                                                                                                                              g                       processes                                                                                                                                                                                              ,                   an                                                        d                        task                                                                                    s                    sinc                                                                                   e             th                                            e           elemen                                                                                                                                                   t




                                                                                                                                                                                                                                        becam                                                                                                           e                        par                                                                    t           o                                   f               MD                                                                                A                                  i                                n                       Januar                                                                                                                                 y                          2002                                                                                                                    ;




                                                                                                                                                                     •                 establis                                                                                                                                                                                  h                      a                                  requiremen                                                                                                                                                                                                                     t             fo                                            r                   th                                                e                contracto                                                                                                                                                                                                  r                 t                        o                     follo                                                                                 w                         th                                                       e




                                                                                                                                                                                                                                        softwar                                                                                                                          e                        developmen                                                                                                                                                                                                                                     t            pla                                                                 n                            i                       n                        th                                                          e                         curren                                                                                                                        t                developmen                                                                                                                                                                                                                       t




                                                                                                                                                                                                                                        contract                                                                                                                                          ;




                                                                                                                                                                 •                 us                                                                                          e                earne                                                                                                             d                        valu                                                                                      e                        managemen                                                                                                                                                                                                                                 t            t                                    o                             repor                                                                                                           t          o                                  n                       th                                            e                   cos                                                         t          an                                                         d




                                                                                                                                                                                                                                    schedul                                                                                                                                  e                        statu                                                                                         s                    fo                                                r                softwar                                                                                                                                               e                      developmen                                                                                                                                                                                                                                                     t             i                            n                     fou                                                           r             o                             f              th                                                  e                         five




                                                                                                                                                                                                                                    AB                                                         L                           subsystems                                                                                                                                                                                                                             ;            an                                                                d




                                                                                                                                                             •                    includ                                                                                                                                                            e                    th                                                   e                   securit                                                                                                                               y                 requirement                                                                                                                                                                                                                                                       s                    fo                                             r                        weapon                                                                                                                                                 s               system                                                                                                                            s                    i                       n                               th                                      e




                                                                                                                                                                                                                                    SSAA                                                                                                    .




                                                        Thes                                                         e           condition                                                                                                                                                                             s            occurre                                                                                                                                                 d                           becaus                                                                                                                                        e                      th                                           e                            elemen                                                                                                                                                   t          manage                                                                                                                                                         r            di                                          d                     no                                                    t            compl                                                                                                                                  y




                                                         wit                              h                   establishe                                                                                                                                                                       d                       MD                                                                                         A                               guidanc                                                                                                                                                         e                 fo                                                       r             preparin                                                                                                                                                                                  g                 an                                                          d                            coordinatin                                                                                                                                                                                              g                         SEMP                                                                                                                                        s




                                                         an                   d                   di                                 d                  no                                                          t           promptl                                                                                                                                                       y                       reac                                                                                  t               t                             o                change                                                                                                                                         s                   i                              n                     th                                                     e                         program                                                                                                                                                                       ,           consisten                                                                                                                                                                t            wit                                                                            h                    th                                         e




                                                        principle                                                                                                                      s               o                                    f              th                                          e                   Do                                                                     D                               500                                                                               0                        series                                                                                                               .                   Further                                                                                                                                                         ,                MD                                                                                                A                              provide                                                                                                                                       d                    les                                                         s                   oversigh                                                                                                                                                            t




                                                        an                    d                   directio                                                                                                                                  n                   becaus                                                                                                                                        e                   th                                        e                   progra                                                                                                                                   m                                        wa                                                              s                     no                                                       t                   schedule                                                                                                                                                                               d                         t                         o                  delive                                                                                                     r                    th                                                  e                   BMD                                                                                                             S




                                                        capabilit                                                                                                            y                     a                                    s              par                                                                 t        o                                        f                BMD                                                                                                               S                            Block                                                                                                                        s                  0                                4                       o                                    r                06                                                                      .             A                                                      s                   a                                   result                                                                                                     ,           withou                                                                                                                            t           a                                    n




                                                        update                                                                               d               singl                                                                                                     e                    acquisitio                                                                                                                                                                                  n                       managemen                                                                                                                                                                                                                                          t             pla                                                                          n                             an                                                      d                        SEMP                                                                                                                              ,           th                                      e                     AB                                                                     L                         elemen                                                                                                                                       t




                                                        manage                                                                                               r               an                                                     d                      th                                              e                   Director                                                                                                                                                         ,               Missil                                                                                                                               e                    Defens                                                                                                                                         e                           Agenc                                                                                                                                                  y              di                                                  d                    no                                                t        hav                                                                         e                    a                                      n




                                                        agreed-upo                                                                                                                                                          n                       acquisitio                                                                                                                                                                                      n                    strateg                                                                                                                                      y                  t                                o                       suppor                                                                                                                                         t                th                                                   e                  element'                                                                                                                                                                     s                    progressio                                                                                                                                                                                                     n




                                                       throug                                                                            h               th                                                    e                acquisitio                                                                                                                                                                                        n                  proces                                                                                                                                  s             an                                                             d                       t                   o                           full                                                                       y                                evaluat                                                                                                                                                      e                    th                                              e                  adequac                                                                                                                                                y                    o                                           f                   th                                      e




                                                       planne                                                                            d               syste                                                                                                         m                               engineering                                                                                                                                                                                                                                    .           Further                                                                                                                                                     ,           b                                        y                    no                                                                      t                requirin                                                                                                                                                             g                th                                               e             prim                                                                                             e




                                                       contracto                                                                                                                           r           t                            o                      adher                                                                                                     e                        t                           o                   th                                            e                       softwar                                                                                                                                               e                      developmen                                                                                                                                                                                                                                                          t           plan                                                                                         ,        t                           o                    establis                                                                                                                              h                            earne                                                                                                       d




                                                       valu                                               e              managemen                                                                                                                                                                                                                  t            reportin                                                                                                                                                                g                        fo                                          r                th                                                       e                 softwar                                                                                                                                                       e                         i                             n                       al                                              l           five                                                                            subsystems                                                                                                                                                                                                         ,               an                                                  d               t                           o




                                                       implemen                                                                                                                                    t               weapo                                                                                                                        n                        syste                                                                                                      m                                   securit                                                                                                                                       y                      requirements                                                                                                                                                                                                                                                                    ,              th                                              e                 elemen                                                                                                                                t           manage                                                                                                                                                           r




                                                       wa                         s                 limite                                                                                                 d                    i                           n                      hi                                           s           abilit                                                                                                              y                   t                           o                    adequatel                                                                                                                                                                                    y                                overse                                                                                                                                          e                     elemen                                                                                                                                             t            developmen                                                                                                                                                                                                                            t                   an                                          d




                                                       syste                                                      m                          security                                                                                                                                                          .




Airborn                                 e   Lase                                                                             r                   Elemen                                                                                                                                                                                                              t




          Th            e          Ai              r   Forc                                                              e           bega                                                                                               n                   developin                                                                                                                                                                                           g                   th                                                       e                    AB                                                                 L                                i                               n             199                                                                                         2                        a                                          s                     a                             separat                                                                                                                                        e                  acquisitio                                                                                                                                                                               n




          program                                              .      I                       n                Januar                                                                                                                   y                       2002                                                                                             ,                   th                                                e             AB                                                                          L                                Progra                                                                                                                                   m                              becam                                                                                                                                                       e                a                                     n                     elemen                                                                                                                                           t           o                          f             th                                       e                        MD                                                                                              A                         an                                            d




          th        e       BMDS                                                      .           Withi                                                                                                        n                    th                                                  e                  BMDS                                                                                                                                             ,       th                                                  e                    primar                                                                                                                                    y                   missio                                                                                                                                         n                             o                                   f              th                                                       e               AB                                                                          L                      Elemen                                                                                                                                        t        i                                   s                t                                o                kil                                           l




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  2                 1
              o           r         disabl                                                                                                  e                     ballisti                                                                                                                                            c                       missile                                                                                                                                             s                     usin                                                                                                 g                            a                               lase                                                                                                   r                connecte                                                                                                                                                                      d                          t                                       o                       a                                    n                       aircraft                                                                                                                                   .       Th                                                                                                    e                element'                                                                                                                                                     s




              secondar                                                                                                                          y                     mission                                                                                                                                                                     s             includ                                                                                                                                     e                     locatin                                                                                                                                                   g                      ballisti                                                                                                                                               c                             missil                                                                                                                            e                             launc                                                                                                                 h                               sites                                                                             ,                   providin                                                                                                                                                                 g                      earl                                                                y




              warning                                                                                                           s                       o                              f                       ballisti                                                                                                                                         c                    missil                                                                                                                             e                  launches                                                                                                                                                                                                   ,                   providin                                                                                                                                                                  g                         cuein                                                                                                                             g                         informatio                                                                                                                                                                                                           n                     t                                       o                othe                                                                                  r




              BMD                                                                      S              element                                                                                                                                                                      s                tha                                                                          t               ma                                                                y                     nee                                                                                                 d                   t                               o                      engag                                                                                                                                         e                     launche                                                                                                                                                 d                              ballisti                                                                                                                                                      c                            missiles                                                                                                                                                               ,           an                                                  d




              predictin                                                                                                                         g                     missil                                                                                                                                e                 impac                                                                                                                            t               points                                                                                                                                            .               Th                                                                       e                                   elemen                                                                                                                                                t              consist                                                                                                                                                         s                o                                       f           five                                                                                      majo                                                                                                       r                       subsystems                                                                                                                                                                                                    :




              th                e                   bea                                                    m                                    control/fir                                                                                                                                                                                                          e                       control                                                                                                                                                    ,                battl                                                                                                      e                management                                                                                                                                                                                                                                                                   ,        th                                                                 e                       laser                                                                                                  ,                   th                                           e              Boein                                                                                                                                       g                747-400                                                                                                                                                  F




              aircraft                                                                                ,                an                                                         d                            groun                                                                                                                              d                 suppor                                                                                                                                                  t          equipment                                                                                                                                                                                                                                             .               Al                                                      l               subsystem                                                                                                                                                                                                                              s                      includ                                                                                                                        e                 mission-critica                                                                                                                                                                                                                                                                             l




              softwar                                                                                          e                    an                                                         d                             hardware                                                                                                                                                                                           .




              Th                                e                existin                                                                                                               g                            AB                                                                              L                          contrac                                                                                                                                                        t                    fo                                                        r                   aircraf                                                                                                                                  t                       1                                               ,           F29601-97-C-0001                                                                                                                                                                                                                                                                                                                                                                                                 ,    include                                                                                                                                                          s            activitie                                                                                                                                        s




            performe                                                                                                                            d                     i                                n                      th                                               e                        earl                                                                                     y                   par                                                                      t                    o                                    f                        th                                                  e                        Technolog                                                                                                                                                                                                                       y                     Developmen                                                                                                                                                                                                                                                                           t                   phas                                                                                  e                           a                                     s                       define                                                                                                           d                    i                       n




              Do                                    D                        Instructio                                                                                                                                                                           n                        5000.2                                                                                                                                                 .            Activitie                                                                                                                                                                                                            s            i                            n                                   th                                                      e                     Technolog                                                                                                                                                                                                                      y                       Developmen                                                                                                                                                                                                                                                        t                   phas                                                                                                e




              includ                                                                        e               earl                                                                                   y                          operationa                                                                                                                                                                                                              l            assessments                                                                                                                                                                                                                                                                        ,                   a                                   s                   necessary                                                                                                                                                                                         ,                 t                                o                       reduc                                                                                                                       e               technology                                                                                                                                                                                                                            ,




              manufacturing                                                                                                                                                                                                                        ,             an                                                                   d                    suppor                                                                                                                                                  t            risk                                                                                         s                       befor                                                                                                                          e                    th                                             e                nex                                                                                t             decisio                                                                                                                                                                  n                point                                                                                                        .         AB                                                                                                            L                       Progra                                                                                                                        m




              staf                                          f        state                                                                                   d                   tha                                                                       t           a                                        contrac                                                                                                                                                t            fo                                                      r                    th                                                          e                       nex                                                                              t                    acquisitio                                                                                                                                                                                                n                    phas                                                                                                                  e                        fo                                             r                        a                                 secon                                                                                                             d                               an                                                    d                 late                                                                      r




            aircraf                                                                         t         wil                                                                         l            b                                        e                      signe                                                                                                                 d                    afte                                                                            r                        th                                                            e                        planne                                                                                                                                              d                              missil                                                                                                                      e                   shoo                                                                                                             t                dow                                                                                          n                                usin                                                                              g                       th                                                        e                           AB                                                                      L




            technology                                                                                                                                                             ,           whic                                                                                                              h                        wil                                                                        l          occu                                                                                                       r                     i                                    n              2008                                                                                                                         .




          Th                                e                   MD                                                                  A                                 Decisio                                                                                                                                                                 n                     Memorandu                                                                                                                                                                                                                                                                m                                  No                                                                                    .                 01                                                          ,       "Plannin                                                                                                                                                                                  g                             Directio                                                                                                                                                                  n                  fo                                                    r                   BMD                                                                                                                   S                       Tes                                                                   t




            Be                              d                   Capability,                                                                                                                                                                                                        "                    Februar                                                                                                                                                            y                          18                                                                             ,           2005                                                                                                     ,         classifie                                                                                                                                                                           d                         th                                                  e                  AB                                                                                            L                                Elemen                                                                                                                                             t           a                                               t            Leve                                                                                                 l               3                                o                                f




            developmen                                                                                                                                                                                     t            maturity                                                                                                                                                                            .              Th                                                                              e                      MD                                                                                                     A                              define                                                                                                                                                s                 Leve                                                                                                l                3                                   a                                                s                    futur                                                                                                e                            block                                                                                                             s                       whos                                                                                                              e




          activitie                                                                                                     s                   ar                                             e                            generall                                                                                                                                                                      y                  associate                                                                                                                                                                                               d                            wit                                                                         h                                   integratio                                                                                                                                                                                      n                     concept                                                                                                                                                                             s                        includin                                                                                                                                                                    g                           componen                                                                                                                                                                          t




          developmen                                                                                                                                                                                   t                an                                                     d                            demonstration                                                                                                                                                                                                                                                                                                .                   T                                                   o                   complet                                                                                                                                                                                    e                  Leve                                                                                                               l                3                                       activities                                                                                                                                                                          ,       th                                                            e                           elemen                                                                                                                                   t




          manage                                                                                                   r             mus                                                                                            t           demonstrat                                                                                                                                                                                                                              e                          tha                                                                                t           th                                                    e                    laser                                                                                                                    s                ca                                            n                          shoo                                                                                              t                     dow                                                                                                           n                a                                          ballisti                                                                                                                                     c                     missile                                                                                                                                      .




         AB                                             L                  staf                                                                 f                 indicate                                                                                                                                                                d                     tha                                                                      t            th                                                       e                  AB                                                                                     L                                    Elemen                                                                                                                                                                    t           coul                                                                                        d                        delive                                                                                                                                             r                 capabilit                                                                                                                                                                    y                           a                                         s                   par                                                         t                   o                             f




          BMD                                                                      S                Bloc                                                                                                        k                   0                                      8                        o                                         r            Bloc                                                                                                k                         10                                                                      ,                   dependin                                                                                                                                                                                                    g                    o                                 n                 MD                                                                                              A                             prioritie                                                                                                                                                                                    s                        an                                             d                 whe                                                                                                           n                   tes                                                         t           result                                                                                                s




          demonstrat                                                                                                                                                              e                    tha                                                                     t               th                                                      e                 AB                                                                                L                        ca                                                              n                                destro                                                                                                                          y                                    o                                              r            disabl                                                                                                                    e                    a                              ballisti                                                                                                                                                        c                       missile                                                                                                                                                .




em                                      s                       Engineerin                                                                                                                                                                                                                                                                                                   g                             Document                                                                                                                                                                                                                                                                                                                           s                                    an                                                                            d                                      Proces                                                                                                                                                                                                                      s




         Althoug                                                                                                        h                       th                                                 e                         elemen                                                                                                                                                  t                manage                                                                                                                                                                     r                di                                                   d                        follo                                                                                                                    w                              man                                                                                            y                o                                      f              th                                                                e                  traditiona                                                                                                                                                                                      l       system                                                                                                                                                        s




         engineerin                                                                                                                                                       g                processe                                                                                                                                                                                      s                describe                                                                                                                                                                                    d              i                                         n                    th                                                e                                Defens                                                                                                                                           e                   Acquisitio                                                                                                                                                                                                                      n                                Guidebook                                                                                                                                                                                                                         ,           h                                     e              di                                         d




         no                         t           complet                                                                                                                                    e                            document                                                                                                                                                                                                    s                 an                                                                d                  processe                                                                                                                                                                                               s                               tha                                                               t       ar                                                      e                      importan                                                                                                                                                                                                t        t                           o                                syste                                                                                         m                                           plannin                                                                                                                                            g                       an                                           d




         development                                                                                                                                                                                                .          Specifically                                                                                                                                                                                                                                                   ,                    th                                                            e                     elemen                                                                                                                                                                 t              manage                                                                                                                                                 r                    di                                                    d                              no                                                                t                 updat                                                                                                             e                 th                                                   e                       singl                                                                                                     e




         acquisitio                                                                                                                                     n                     managemen                                                                                                                                                                                                                                             t         pla                                                                                 n                         an                                                               d                        th                                              e                   SEMP                                                                                                                                               ,                    establis                                                                                                                                                                 h                   a                                          requiremen                                                                                                                                                                                                                         t                   fo                                                r            th                                              e




         contracto                                                                                                                          r                 t                        o                            follo                                                                                                 w                                th                                                    e                      softwar                                                                                                                                                              e                       developmen                                                                                                                                                                                                                                                             t               plan                                                                                       ,                 establis                                                                                                                                                                        h                 earne                                                                                                               d                     valu                                                                                                e




         managemen                                                                                                                                                                         t                    reportin                                                                                                                                                                     g                   o                                    n                        softwar                                                                                                                                                                    e                     developmen                                                                                                                                                                                                                                                      t               fo                                                 r                      al                                                   l                five                                                                                     subsystems                                                                                                                                                                                                                                    ,       an                                                 d                     cit                                            e




         securit                                                                           y                    requirement                                                                                                                                                                                                                                              s                       fo                                           r                weapo                                                                                                                                                 n                               system                                                                                                                                                               s                 i                n                       th                                                     e                   SSAA                                                                                                                                                    .




      Updatin                                                                                                               g                               Plannin                                                                                                                                                                       g                     Documents                                                                                                                                                                                                                                                            .               Th                                                                           e                               elemen                                                                                                                                                t              manage                                                                                                                                                                       r                    di                                             d                                no                                              t             updat                                                                                                                                 e            th                                             e                 199                                                                     6




      singl                                                           e             acquisitio                                                                                                                                                                                         n                        managemen                                                                                                                                                                                                                                                        t               pla                                                                        n                    an                                                                                      d                        199                                                                              7                         SEM                                                                                                                  P                             t                          o                            recogniz                                                                                                                                                           e                           th                                                                e                   change                                                                                                                            s




      tha                                   t           ha                                  d                   occurre                                                                                                                                                    d                            i                                 n                 th                                                   e                  overal                                                                                                                                               l             technica                                                                                                                                                                                      l            approach                                                                                                                                                                           ,             system                                                                                                                                                               s                        engineerin                                                                                                                                                                                                               g




     processes                                                                                                                                      ,            an                                                      d                  task                                                                                                  s             sinc                                                                                       e                   th                                                      e                     elemen                                                                                                                                                       t                       becam                                                                                                                                            e                    par                                                                t             o                                                    f                    MDA                                                                                                                               .             Th                                                              e                   element'                                                                                                                                                                             s                 mos                                                                          t




      significan                                                                                                                                    t             chang                                                                                                                             e                     wa                                                                          s              movin                                                                                                                                           g                            fro                                                                   m                             a                                                   single                                                                                                                      ,                 stand-alon                                                                                                                                                                                                                            e                 syste                                                                                                    m                             t                                   o                         bein                                                                                            g                   par                                                           t           o                               f




     a                n       overal                                                                                                    l               integrate                                                                                                                                                                                 d                  syste                                                                                                          m                                           tha                                                                              t           mus                                                                                      t                       communicat                                                                                                                                                                                                                                                 e                              wit                                                                                     h                      th                                                    e                      othe                                                                               r                   MD                                                                                                 A




     element                                                                                                s                   withi                                                                                                        n                        th                                                      e                        BMDS                                                                                                                                                    ,            suc                                                                                  h                       a                                      s              th                                                          e                            Aegi                                                                                              s                     BMD                                                                                                                           ,               th                                                    e                         THAAD                                                                                                                                                                        ,               an                                                                d                    th                                             e




     Patriot-3                                                                                                              .               Anothe                                                                                                                                                                r               significan                                                                                                                                                                                                    t                    chang                                                                                                                                    e                   wa                                                                                      s                 tha                                                                 t            th                                               e                 element                                                                                                                                                                         ,                a                                         s            par                                                                    t            o                                            f                   MDA                                                                                                      ,            wa                                                      s




     require                                                                                    d                  t                                o                     star                                                                         t              followin                                                                                                                                                                             g                    acquisitio                                                                                                                                                                                                                n                       procedure                                                                                                                                                                                                             s                     tha                                                                                  t                mee                                                                                  t                  th                                                      e               principle                                                                                                                                                                                  s             o                                  f             th                                       e




     Do                                 D                            500                                                                0                         serie                                                                                                s                   o                                      f                   directives                                                                                                                                                                                                         .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      2                       2
       Single Acquisition M a n a g e m e n t Plan. DoD Instruction 5000.2 requires
program managers to prepare and obtain approval of an acquisition strategy at
program initiation and to update their acquisition strategy at subsequent major
decisions, program reviews, and whenever a change occurs in the program's
approved acquisition strategy. The element manager, under Air Force
management, issued the single acquisition management plan on November 26,
1996, to support the Milestone I (now Milestone A) decision to initiate the
program. The single acquisition management plan states that it is a
comprehensive, integrated plan that describes the overall acquisition strategy and
management processes for executing definition and risk reduction. It includes
planning for the ABL engineering and manufacturing development and
production phases of the acquisition process.

The element manager, however, did not update the original single acquisition ­
management plan as required even though significant changes occurred over the
8 years since issuance of the 1996 Single Acquisition Management Plan. One of
the significant changes was the MDA plan to use an evolutionary approach for
developing and deploying the various BMDS elements, which meant that the
element manager needed to include a specific set of parameters, with thresholds
and objectives, for each evolutionary increment. The ABL Single Acquisition
Management Plan did not describe and define how the element would use an
evolutionary acquisition strategy.

        System Engineering M a n a g e m e n t Plan. The Under Secretary of
Defense for Acquisition, Technology, and Logistics memorandum,
"Implementing Systems Engineering Plans in DoD ­ Interim Guidance," March
30, 2004, states that program managers should establish the systems engineering
plan early in the program's life cycle to guide all technical aspects of an
acquisition program. Further, the systems engineering plan is intended to be a
living document that supports program management by defining and describing
the systems engineering responsibilities of the Government and the contractor.
The systems engineering plan should include specific parameters that describe a
program's overall technical approach, including systems engineering processes,
resources, key technical tasks, activities, and events, and measure its success.
Further, the Under Secretary of Defense for Acquisition, Technology, and
Logistics memorandum, "Policy for Systems Engineering in DoD," February 20,
2004, requires the systems engineering plan, or the SEMP for MDA, to be
integrated with the acquisition strategy. To comply with this principle, the SEMP
should be updated when significant changes occur in the acquisition strategy.
The element manager had not updated the SEMP since 1997, before the ABL
became an MDA element.

Additionally, the element manager did not discuss technical baselines or entrance
criteria for technical reviews in the SEMP, as required in the Under Secretary of
Defense for Acquisition, Technology, and Logistics memorandums on "Policy
Addendum for Systems Engineering, October 22, 2004 and "Implementing
Systems Engineering Plans in DoD ­ Interim Guidance," March 30, 2004.
Instead, the SEMP indicated that the technical reviews were performed according
to a schedule rather than being based on satisfying specific entrance criteria.



                                    23
Implementing the Software Development Plan Requirements. The ABL
contractor developed a software development plan, "ABL Software Development
Plan," November 26, 2003, and coordinated it with the element manager.
However, the element manager did not require the contractor to comply with it in
executing contract F29601-97-C-0001. The software development plan
established and defined the best practices and processes necessary to complete all
phases of the ABL software development. Specifically, the plan covered
planning, production, and testing of software for the operational flight and
mission, and the simulation and engineering that could be used by the contractor
in developing the ABL software. The element office staff agreed that being able
to enforce compliance with portions of the software development plan in the
contract terms would enhance their ability to manage software development. The
software development plan should be followed for the next and any subsequent
ABL contracts.

Establishing E a r n e d Value M a n a g e m e n t Reporting for Software
Development. The National Defense Industrial Association Program
Management Systems Committee ANSI/EIA-748-A, "Standard for Earned Value
Management Systems Intent Guide," January 2005, intended for Government and
contractor use in implementing earned value management, states that the work
breakdown structure for earned value management reporting should extend to the
level necessary for management action and control and be based on the
complexity of the work. The element office staff indicated that software
development was complex and difficult for all five ABL subsystems, but the
element manager and the contractor established software development as a top-

level, work breakdown structure, with earned value management reporting for
only one of the five subsystems—the Battle Management. Accordingly, the
element office did not receive earned value management cost and schedule
reporting for the beam control/fire control, the high energy laser, the aircraft
subsystems, and the ground support subsystem.

Tracking and reporting earned value is the key to understanding the status of the
project because earned value measures the actual cost and time to perform work
against the budgeted cost and time. Further, earned value allows acquisition
managers to estimate the cost for completing planned work. The first step in
implementing earned value management is defining the work breakdown
structure. Element office staff agreed that revising the work breakdown structure
for separate cost and schedule reporting on the software development for the other
three subsystems would add value in understanding their potential software
problems.

Applying R e q u i r e m e n t s for Weapon System Security. The element manager
applied system security requirements in the SSAA for the National Industrial
Security Program Operating Manual for contractor facilities, rather than applying
weapon systems security requirements. The element office staff stated that
weapon systems security requirements did not apply to the first ABL aircraft
because it was only used for development and testing. However, the staff agreed
that it would be more appropriate for the SSAA to reference weapon system
security requirements for the second ABL aircraft, because that aircraft will have
operational as well as developmental use.


                                    24
Factor                                                 s                          Affectin                                                                                                                                                                                                                                           g                             System                                                                                                                                                                                                                              s                         Engineerin                                                                                                                                                                                                                                                                                                                                                           g




                             Th                                              e                elemen                                                                                                                                                          t                manage                                                                                                                                                         r                di                                                    d                           no                                                            t               satisf                                                                                                         y                          th                                                              e                               requirement                                                                                                                                                                                                                                                     s                           o                              f                    Do                                                                    D                                  Directiv                                                                                                                                                                                             e                          5134.                                                                                                         9




                             fo                            r                 managin                                                                                                                                                                                       g                accordin                                                                                                                                                                                g                        t                               o                th                                                           e                 principle                                                                                                                                                                                                   s                    o                                               f              th                                               e                   Do                                                                             D                                 500                                                                                            0                    serie                                                                                                              s                     o                                   f                     directive                                                                                                                                                                           s               an                                                d




                             th                            e                     Unde                                                                                                               r               Secretar                                                                                                                                                                        y                         o                                          f              Defens                                                                                                                                                   e                  fo                                                           r            Acquisition                                                                                                                                                                                                                                                              ,           Technology                                                                                                                                                                                                                                                       ,               an                                                                      d                      Logistic                                                                                                                                                                                 s




                             memorandum                                                                                                                                                                                                                                                             ,       Marc                                                                                                                      h                        30                                                                ,               2004                                                                                                      ,                whic                                                                                                               h                           require                                                                                                                                                                s               th                                                       e                     elemen                                                                                                                                                    t                manage                                                                                                                                                                                 r                   t                          o                             updat                                                                                                     e                    th                                           e




                             singl                                                                         e                 acquisitio                                                                                                                                                                                                                  n              managemen                                                                                                                                                                                                                                                            t         plan                                                                                                 ,                 an                                                                 d                            th                                                             e                    SEM                                                                                                                   P                         whe                                                                                                n                     significan                                                                                                                                                                                                                  t                    change                                                                                                                                                s




                             occu                                                                      r             i                            n                            th                                                     e                           progra                                                                                                                                m                                     acquisitio                                                                                                                                                                                                       n                                 strategy                                                                                                                                                                            .               Additionally                                                                                                                                                                                                                                                                                            ,               th                                               e                     elemen                                                                                                                                                                         t              manage                                                                                                                                                  r                di                                           d




                             no                                  t               compl                                                                                                                               y                              wit                                                                          h                       MD                                                                                       A                                 guidanc                                                                                                                                                                         e                             fo                                           r                coordinatin                                                                                                                                                                                                                                                            g                         an                                                            d                         obtainin                                                                                                                                                                         g                           MD                                                                                                        A                                approva                                                                                                                                                            l       o                                   f




                             SEMPs                                                                                                                              .                  Specifically                                                                                                                                                                                                                                                       ,          th                                                          e                       MD                                                                                          A                                      Assuranc                                                                                                                                                                                                          e                        Provision                                                                                                                                                                                                         s                         requir                                                                                                                           e                 progra                                                                                                                                                             m                                      manager                                                                                                                                                         s




                         t            o                documen                                                                                                                                                                                            t                th                                                e                    design                                                                                                                                         ,           engineering                                                                                                                                                                                                                                             ,                 an                                                                        d                       technica                                                                                                                                                                               l               managemen                                                                                                                                                                                                                                                         t                    processe                                                                                                                                                                                        s                   fo                                         r               al                                    l




                             phase                                                                                       s                o                                             f               a                                   SEM                                                                                                               P                     lif                                                               e                      cycl                                                                                          e                      an                                                       d                                 submi                                                                                                                                 t                 i                                   t           t                                 o                         MD                                                                                      A                                      fo                                                       r                     approval                                                                                                                                                                                        .




                         Further                                                                                                                           ,              th                                                      e                       elemen                                                                                                                                                t                 receive                                                                                                                                                     d                            les                                                                          s        direc                                                                                                                       t                   an                                                                d                         explici                                                                                                                                               t           directio                                                                                                                                                                 n                     fro                                                                              m                                     th                                                              e                      MD                                                                                        A




                             becaus                                                                                                           e                       i                                 t            wa                                                                     s                   a                                    t         Capabilit                                                                                                                                                                                          y                       Leve                                                                                                               l               3                                      maturit                                                                                                                                                                          y                       an                                                        d                         therefor                                                                                                                                                                          e                   wa                                                                     s                       no                                                                    t                 schedule                                                                                                                                                                        d                       t                         o




                         delive                                                                                              r                 BMD                                                                                                                                      S                       capabilit                                                                                                                                                                                    y                           a                             s                 par                                                                                t                o                               f             Block                                                                                                                                                 s                        0                                         4                 o                                     r                  06                                                                      .       Specifically                                                                                                                                                                                                                                                                ,             unlik                                                                                                                                e               th                                                  e




                         element                                                                                                                                      s                     classifie                                                                                                                                                                  d                       a                                          t                Capabilit                                                                                                                                                                                       y                                 Leve                                                                                                              l             2                                               :               Nex                                                                                          t               Block                                                                                                                                      ,               MD                                                                                        A                               di                                                         d                             no                                                                t                    identif                                                                                                                                       y




                        detaile                                                                                                       d                             requirement                                                                                                                                                                                                                                                       s                       from                                                                                                    th                                                         e                   tes                                                                 t           be                                                                    d                      syste                                                                                                                             m                                 specificatio                                                                                                                                                                                                                                         n                          fo                                                      r                   th                                                        e                        AB                                                                                                 L




                        Element                                                                                                                                                .                Elemen                                                                                                                                                                     t               offic                                                                                                     e                       staf                                                                                      f             state                                                                                                 d                         tha                                                                                             t           i                            t                   woul                                                                                                     d                      b                                                e                helpfu                                                                                                                                    l            i                                  f               MD                                                                                                     A                                           provide                                                                                                                                                  d




                        the                                                  m                         wit                                                                                  h                       mor                                                                                             e                     specifi                                                                                                                                       c                        guidanc                                                                                                                                                                           e             o                                      n                              th                                                        e                           system                                                                                                                                                    s                 engineerin                                                                                                                                                                                                                            g                         activitie                                                                                                                                                                                           s                      tha                                                            t             th                                            e




                        elemen                                                                                                                     t                shoul                                                                                                                           d                        b                                    e                performin                                                                                                                                                                                                               g                         a                                          s                   i                    t           progresse                                                                                                                                                                                                                          s             toward                                                                                                                                                             s                     achievin                                                                                                                                                                               g                         Leve                                                                                                                         l              2




                    classification                                                                                                                                                                                                                                                  .




Conclusio                                                                                                                            n




                    Th                                               e                Director                                                                                                                                                                                  ,       Missil                                                                                                                                    e                       Defens                                                                                                                                                   e                     Agenc                                                                                                                                              y                              wa                                                                            s                        no                                                          t           abl                                                                               e                     t                          o                             full                                                                        y                    evaluat                                                                                                                                                                       e                            th                                                           e




                    adequac                                                                                                                                               y                         o                                           f                     th                                            e                    syste                                                                                                            m                                 engineerin                                                                                                                                                                                                                           g                 fo                                                                  r               th                                                            e                            AB                                                                          L                            Elemen                                                                                                                                                                        t            an                                                       d                         coul                                                                                                       d                              no                                                                   t                 b                                e                    certai                                                                                                  n




                    tha                                                  t           al                                      l                technica                                                                                                                                                                               l            change                                                                                                                                                         s                   i                        n                      th                                                      e                     elemen                                                                                                                                                           t                wer                                                                                                     e               know                                                                                                                             n                    an                                                              d                         approved                                                                                                                                                                                                           .              Specifically                                                                                                                                                                                                                                         ,




                    a                     n                update                                                                                                                                       d                         singl                                                                                                              e                acquisitio                                                                                                                                                                                                     n                         managemen                                                                                                                                                                                                                                                                     t            pla                                                                             n                       wa                                                                             s                     necessar                                                                                                                                                                             y                     t                                   o                         sho                                                                                          w                                   tha                                                                   t           th                                             e




                    Director                                                                                                                                              ,             Missil                                                                                                                                            e                  Defens                                                                                                                                                  e                       Agenc                                                                                                                                                  y                an                                                                d                           th                                                            e                       elemen                                                                                                                                                        t                manage                                                                                                                                                                 r                  ha                                                          d                               agree                                                                                                                              d                          t                             o                    a                                 n




                    acquisitio                                                                                                                                                                          n                         strateg                                                                                                                                          y                        t                             o                          brin                                                                                         g                      th                                                      e                  elemen                                                                                                                                                               t                   t                               o                            Leve                                                                                                     l                 2                                           :                Nex                                                                                        t               Bloc                                                                                                     k                           an                                                                d                              t                                 o                           transitio                                                                                                                                                  n




                    th                             e                     AB                                                                    L                                   t                            o                          th                                                   e                       Ai                                                     r               Force                                                                                                                                 .               Additionally                                                                                                                                                                                                                                                                            ,                   a                                   n                            update                                                                                                                                                d                         SEM                                                                                                                  P                       woul                                                                                                                         d                      hav                                                                                            e                         provide                                                                                                                                         d




                    th                             e                     elemen                                                                                                                                               t                 manage                                                                                                                                                              r                 wit                                                                            h                           a                               pla                                                                       n                                describin                                                                                                                                                                                                     g                             th                                                e                   element'                                                                                                                                                                                               s                overal                                                                                                                                            l               technica                                                                                                                                                                                   l




                    approac                                                                                                                                     h                           t                             o                          achiev                                                                                                                                    e                        it                                           s              objectives                                                                                                                                                                                                               .               Further                                                                                                                                                                                      ,             th                                                e                       elemen                                                                                                                                                                t         manage                                                                                                                                                                           r                coul                                                                                                     d                          increas                                                                                                                                         e




                    hi                         s                     oversigh                                                                                                                                                                                     t            an                                                     d                      contro                                                                                                                                      l               o                                    f                 th                                                       e             AB                                                                                 L                              developmen                                                                                                                                                                                                                                                                          t                 an                                                        d                                 increas                                                                                                                                                e                       syste                                                                                                                              m                                       securit                                                                                                                               y




                    b                     y                    requirin                                                                                                                                                               g                               th                                                e                     prim                                                                                                e                      contracto                                                                                                                                                                                                  r                   t                     o                    compl                                                                                                                                                          y                          wit                                                                       h                        th                                                        e                    softwar                                                                                                                                                     e                            developmen                                                                                                                                                                                                                                                                     t              plan                                                                              ,




                t                 o           establis                                                                                                                                                      h                             earne                                                                                                                d                   valu                                                                                                          e                   managemen                                                                                                                                                                                                                                                     t               reportin                                                                                                                                                                                       g                    fo                                                           r                th                                                          e                      softwar                                                                                                                                                   e                           fo                                                        r                     th                                                         e                          five




                elemen                                                                                                                    t                    subsystems                                                                                                                                                                                                                                       ,              an                                                            d                       t                                o                    implemen                                                                                                                                                                                                                t                   securit                                                                                                                                                    y                       requirement                                                                                                                                                                                                                                                         s                 fo                                                            r                    weapo                                                                                                                                                        n                    systems                                                                                                                                                .




                MD                                                                        A                        staf                                                                                     f                 state                                                                                                           d                i                           n                        respons                                                                                                                                                              e                         t                             o                      a                                   discussio                                                                                                                                                                                                              n                         draf                                                                                    t                tha                                                                            t                   the                                                                   y                       woul                                                                                                                     d                    issu                                                                                                        e                        mor                                                                             e




                detaile                                                                                                          d                             engineerin                                                                                                                                                                                                                       g                            guidanc                                                                                                                                                                       e                     t                         o                                th                                        e                     elemen                                                                                                                                                                               t               manager                                                                                                                                                                                     ,             beginnin                                                                                                                                                                                       g                         i                           n                             200                                                                                             6                    o                                   r              2007                                                                                      ,




                an                                     d                         woul                                                                                                       d                       establis                                                                                                                                                           h                        specifi                                                                                                                                           c                      AB                                                                                         L                        Elemen                                                                                                                                                                              t                requirement                                                                                                                                                                                                                                                               s           t                                  o                   suppor                                                                                                                                                      t                    th                                                       e                           element'                                                                                                                                                       s




            expecte                                                                                                                                    d                           Bloc                                                                                                                 k                    201                                                                                0                         maturation                                                                                                                                                                                                                                    .              Th                                                                          e                       MD                                                                                                         A                                  staf                                                                                  f                 state                                                                                                              d              tha                                                                            t            th                                                     e                            AB                                                                                          L                         transitio                                                                                                                                                                 n




            t                     o           th                                               e               Ai                                                                   r               Forc                                                                                                        e                     depende                                                                                                                                                                        d                           o                                   n                             a                                 successfu                                                                                                                                                                                                           l           demonstratio                                                                                                                                                                                                                                                                                           n                    i                             n                       th                                                 e                   BMD                                                                                                                                                S                       tes                                                                   t            be                                                d




            an                                         d                         o                             n                 th                                                             e                   MD                                                                                              A                                    Director'                                                                                                                                                                                        s                    decisio                                                                                                                                                 n                        t                                      o                         effec                                                                                                                   t              th                                                  e                       transition                                                                                                                                                                                                     .          Further                                                                                                                                                                                      ,                th                                                      e                AB                                                                           L




            elemen                                                                                                                        t                    staf                                                                                           f                 state                                                                                          d                    that                                                                                         ,               whil                                                                                                      e                 the                                                                     y                     ha                                                                      d                     no                                                                           t                update                                                                                                                                           d                         th                                                            e                 SEM                                                                                                               P                     sinc                                                                                                       e                             1997                                                                                                            ,            the                                                             y




            ha                                         d                         update                                                                                                                                   d                           th                                                    e                        system                                                                                                                                             s                    engineerin                                                                                                                                                                                                                    g                        document                                                                                                                                                                                                                              s                 cite                                                                                           d                     i                                      n               th                                                 e                      SEM                                                                                                                          P                        tha                                                                                  t              provid                                                                                                                              e




            progra                                                                                                           m                                        guidance                                                                                                                                                                                             .           Specifically                                                                                                                                                                                                                                                            ,                the                                                                     y                              ha                                                                        d                       update                                                                                                                                            d                          th                                                       e                         Integrate                                                                                                                                                                                    d                                Tas                                                                                             k                     an                                                               d




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            2                              5
                           Managemen                                                                                                                                                                                                      t             Plan                                                                                                    ,                a                           contracto                                                                                                                                             r                   documen                                                                                                                                                                                       t                tha                                                                  t           track                                                                                      s               ke                                                   y             technica                                                                                                                                                      l                 task                                                                          s           an                                          d




                           events                                                                                         ,           an                                                         d                          AB                                                                       L                                    progra                                                                                                                        m                             instruction                                                                                                                                                                                                  s               tha                                                                      t             documen                                                                                                                                                         t              system                                                                                                                             s                 engineerin                                                                                                                                                                                g




                           processes                                                                                                                                                       ,             technica                                                                                                                                                                        l         performanc                                                                                                                                                                                   e                     measures                                                                                                                                                                                                        ,           sourc                                                                                     e                    selection                                                                                                                                                          ,           an                                                d                         correctiv                                                                                                                                          e               an                                           d




                           preventiv                                                                                                                                                   e                          actio                                                                                          n                                    procedures                                                                                                                                                                                  .       W                                                               e                        believ                                                                                                                                e                      tha                                                                t            thos                                                                      e                   plan                                                                          s                    an                                                  d                    actions                                                                                                                                ,        combine                                                                                                                       d




                          wit                                               h               implementin                                                                                                                                                                                                                                                    g                     ou                                                     r             recommendations                                                                                                                                                                                                                                                                                                                        ,          wil                                                                    l            significantl                                                                                                                                                                                     y                       enhanc                                                                                                                                        e                  th                                   e




                           effectivenes                                                                                                                                                                                          s                  o                                        f               system                                                                                                                                         s               engineerin                                                                                                                                                                                        g                    fo                                                  r                th                                                        e                   AB                                                              L                   Element                                                                                                                                                     .




Recommendation                                                                                                                                                                                                                                                                                                                                        s




                          Revise                                                                                              d                           Recommendation                                                                                                                                                                                                                                                                                                                                                      .           A                                             s                a                                      resul                                                                                                      t            o                                       f                 managemen                                                                                                                                                                                                    t           comments                                                                                                                                                                                            ,             w                                   e                 revise                                                                                       d




                           Recommendatio                                                                                                                                                                                                                                                                          n                                    D.3                                                                              .        t                  o                  pertai                                                                                           n                    t                                 o                         th                                                e                 planne                                                                                                                                    d                 secon                                                                                                   d                   an                                                  d                         late                                                                      r             AB                                                                          L                     aircraf                                                                                                t




                          rathe                                                                    r        tha                                                                        n                          th                                         e                    firs                                                                              t                AB                                                                 L                     aircraft                                                                                                               .                W                                                                            e                       mad                                                                                                e                    thi                                                 s              revisio                                                                                                               n                      base                                                                                       d                  o                                      n                    managemen                                                                                                                                                                                      t




                          assertion                                                                                                                                        s                   tha                                                              t               becaus                                                                                                                                          e                th                                       e                contracto                                                                                                                                                                           r           ha                                                       d                            alread                                                                                                               y               complete                                                                                                                                                                 d                    th                                               e                 majorit                                                                                                                         y                o                          f           wor                                                              k




                          o              n                         th                                  e          firs                                                                           t                aircraft                                                                                                                                              ,            i                        t            wa                                                     s               no                                          t           cost-effectiv                                                                                                                                                                                                                                               e                       t                        o                        implemen                                                                                                                                                             t           th                                                     e                recommendatio                                                                                                                                                                                                                                                  n               o                           n




                          thi                                       s            aircraft                                                                                                                                   .    W                                                                       e                           furthe                                                                                                             r           revise                                                                                                 d                    th                                                       e                        recommendatio                                                                                                                                                                                                                                                                               n                      t                       o                     recogniz                                                                                                                                                         e                  tha                                                           t               th                                 e            aircraf                                                                                                t




                          subsyste                                                                                                                             m                                     o                                    f             AB                                                                                    L                             di                                         d                    no                                                t          requir                                                                                                   e                        ne                                                              w                             software                                                                                                                                                                     .




                          W                                    e                recommen                                                                                                                                                                                                         d                           tha                                                                                  t         th                                               e                Airborn                                                                                                                                                            e                    Lase                                                                                                             r                  elemen                                                                                                                                  t           manager                                                                                                                                                                             :




                          1              .            Updat                                                                                                                                e                      th                                                e               199                                                                                                  6               Singl                                                                                             e              Acquisitio                                                                                                                                                                                                     n                         Managemen                                                                                                                                                                                                                                         t           Pla                                                                           n                    to                                                       :




                                                                                                                                           a                       .           Adher                                                                                                                                                              e                 t                              o                  th                                            e                 principle                                                                                                                                                                      s                 i                               n                 Do                                                                               D                                  Instructio                                                                                                                                                                    n                       5000.2                                                                                                                                   ,               "Operatio                                                                                                                                                                   n                   o                       f




                      th                               e                    Defens                                                                                                                                     e         Acquisitio                                                                                                                                                                                                                     n                System,                                                                                                                                                   "                     Ma                                                                            y                        12                                                                        ,           2003                                                                              ,       t                             o                   updat                                                                                                                 e                th                                                   e                     change                                                                                                                          s         tha                                                               t




                      occurre                                                                                                                         d                        i                                    n                th                                                  e                    element'                                                                                                                                                                            s             technica                                                                                                                                                                   l        approach                                                                                                                                                                                                   ,          system                                                                                                                           s              engineerin                                                                                                                                                                                                       g                     processes                                                                                                                                              ,




                      an                                       d                 task                                                                                      s                   sinc                                                                                  e                   i                                        t            becam                                                                                                                       e                   par                                                             t            o                                         f               th                                                           e                Missil                                                                                                                                 e                    Defens                                                                                                                   e                 Agenc                                                                                                                            y                     i                            n                         Januar                                                                                                                        y




                     2002                                                                      .




                                                                                                                                           b                           .           Defin                                                                                                                             e                                th                                                 e                 evolutionar                                                                                                                                                                                                         y                         acquisitio                                                                                                                                                                                                         n                 strateg                                                                                                                              y                an                                                              d                    includ                                                                                                                                e




                      parameters                                                                                                                                                                                                 ,             wit                                                                               h                         threshold                                                                                                                                                                      s              an                                                       d                            objectives                                                                                                                                                                                                                  ,           fo                                         r        eac                                                                       h                    evolutionar                                                                                                                                                                                                                             y                incremen                                                                                                                                                 t




                      planne                                                                                                      d                       fo                                                                r        th                                                   e                      Airborn                                                                                                                                                                  e                Lase                                                                                          r                Element                                                                                                                                                                                             ,           i                        n                   complianc                                                                                                                                                                                     e                    wit                                                                h                        Do                                                                          D




                     Directiv                                                                                                                                  e                   5134.9                                                                                                                                                     ,            "Missil                                                                                                                                e                  Defens                                                                                                                              e                        Agency,                                                                                                                                                                              "                   Octobe                                                                                                                                r          9                                    ,           2004                                                                                                 .




                     Managemen                                                                                                                                                                                                                      t               Comments                                                                                                                                                                                                                      .        Th                                                          e                    Executiv                                                                                                                                                                                     e                      Director                                                                                                                                              ,       respondin                                                                                                                                                                               g                      fo                                              r                th                                         e                AB                                                       L




                     elemen                                                                                                   t                manager                                                                                                                                                                               ,                concurred                                                                                                                                                                   ,       statin                                                                                                             g                        tha                                                                      t        th                                                        e                   AB                                                              L                   elemen                                                                                                                            t                manage                                                                                                                                                  r                 wil                                                     l           updat                                                                                    e




                     th                       e                         singl                                                                              e                       acquisitio                                                                                                                                                                                                  n                  managemen                                                                                                                                                                                                       t             pla                                                                            n               t                             o                        includ                                                                                                                  e            th                                                 e             evolutionar                                                                                                                                                                                                        y                         acquisitio                                                                                                                                                 n




                     strateg                                                                                          y                        plan                                                                                            .




                 Audi                                                                              t       Response                                                                                                                                                                                                      .                    I                                       n                  respons                                                                                                                          e               t                        o                 th                                                      e                        fina                                                                          l            report                                                                                                                        ,          w                                  e                    reques                                                                                                                   t              tha                                                            t            th                                                  e                  AB                                                            L                elemen                                                                                                              t




                 manage                                                                                                               r                   provid                                                                                                                                     e                       a                                      n                        estimate                                                                                                                                 d                 dat                                                                   e                     fo                                                     r               updatin                                                                                                                                                     g                 an                                         d                     obtainin                                                                                                                                                      g                 final                                                                                          approva                                                                                                                           l        o                               f




                 th                          e                          singl                                                                              e                       acquisitio                                                                                                                                                                                                 n               managemen                                                                                                                                                                                                       t                plan                                                                                                .




                 2                   .       Updat                                                                                                                                 e                         th                                             e                     199                                                                                            7                     System                                                                                                                         s               Engineerin                                                                                                                                                                                                                                  g                       Managemen                                                                                                                                                                                                                            t           Pla                                                                            n                  t                                  o                  compl                                                                                                            y            wit                                                                h




                 th                               e                      principle                                                                                                                                                                      s                   o                                f                           th                                                    e              Unde                                                                                                    r           Secretar                                                                                                                                                                             y                 o                                       f                    Defens                                                                                                                          e                 fo                                                   r           Acquisition                                                                                                                                                                                                                               ,          Technology                                                                                                                                                                                ,




                 an                                        d                    Logistic                                                                                                                                                        s                   memorandums                                                                                                                                                                                                                                                                                    '           requiremen                                                                                                                                                                                                                                                                t         t                            o                  updat                                                                                                     e                     a                                 s                change                                                                                                                                             s               occurre                                                                                                                        d                   i                   n




                 th                              e                       program'                                                                                                                                                                                   s              overal                                                                                                                                           l           technica                                                                                                                                         l               approach                                                                                                                                                                                                                     ,          includin                                                                                                                                                g                   processes                                                                                                                                                                                 ,         resources                                                                                                                                                              ,




                 metrics                                                                                                                   ,              an                                                                d                 applicabl                                                                                                                                                                                                e                performanc                                                                                                                                                                                                                             e                   incentives                                                                                                                                                                                               ,           an                                                       d                   t                         o                     establis                                                                                                                                                    h                       entranc                                                                                                                            e




                 criteri                                                                                          a                   fo                                                                 r                 al                                           l         planne                                                                                                                                                    d               technica                                                                                                                                                  l                   reviews                                                                                                                                                                         .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  2                    6
M a n a g e m e n t Comments. The Executive Director concurred, stating that the
SEMP had been updated and that the most recent version was dated
September 22, 2005.

3. F o r the planned contracts for the second and subsequent A B L aircrafts:

      a. R e q u i r e the c o n t r a c t o r to implement the A i r b o r n e L a s e r Software
Development Plan.

M a n a g e m e n t C o m m e n t s : The Executive Director nonconcured, stating that it
would be cost prohibitive and of limited benefit for the ABL program to put the
ABL Software Development Plan on the existing contract for the first ABL
aircraft because most subsystem software was already complete and supported
integration and test activities.

Audit Response: We recognize that there are costs as well as benefits that are
associated with implementing the ABL Software Development Plan, and we
acknowledge the Executive Director's statement that the majority of the work was
complete on the contract for the first ABL aircraft. Therefore, we revised the
recommendation to require the contractor to implement the ABL Software
Development Plan in the planned contracts for the second and later aircraft. In
response to the final report, we request that the ABL element manager comment
on the revised recommendation.

        b. R e q u i r e the contractor to use earned value m a n a g e m e n t reporting
for software development on the following subsystems of the A i r b o r n e Laser:
beam control/fire control, the high energy laser, and g r o u n d s u p p o r t
equipment.

M a n a g e m e n t C o m m e n t s : The Executive Director nonconcurred, stating that the
ABL Element had adequate earned value management reporting. Specifically, he
stated that software earned value reporting was already occurring on the beam
control/fire control unit and on the ground support equipment. The Executive
Director stated that the laser software was embedded within each subsystem and
that the aircraft did not require new software. He further stated that although the
ABL element manager agrees that software earned value reporting is a good
practice, it would be cost prohibitive to invoke a lower level earned value
reporting at this time.

Audit Response: The Executive Director's comments were not responsive. The
contractor's Cost Performance Report Work Breakdown Structure for
February 25, 2005, through March 31, 2005, provided separate earned value
reporting for the Battle Management, Command, Control, Communications,
Computers and Intelligence segment only. Although the narrative section
discussed software issues relating to the other ABL subsystems, it did not provide
specific earned value percentages for the other ABL subsystems. Recognizing
that the contractor had completed the first ABL aircraft and that the aircraft
subsystem did not require new software, we revised the recommendation to
require the ABL element manager to task the contractor to use earned value
management reporting for software development on the beam control/fire control,
the high energy laser, and ground support equipment on the planned contracts for

                                          27
the second and later aircraft. In response to the final report, we request that the
ABL element manager reconsider his response to the draft report recommendation
and comment on the revised recommendation in the final report.

4. Update the System Security Authorization Agreement to include weapon
system security r e q u i r e m e n t s for the second and later A B L aircraft.

M a n a g e m e n t C o m m e n t s : The Executive Director nonconcurred stating that the
current SSAA for the ABL Weapon System applies only to the first ABL aircraft.
However, the Executive Director stated that when the ABL element manager
develops contracts for the second and later ABL aircraft, he will include system
security requirements in the contracts and in a new SSAA.

Audit Response: The Executive Director's comments met the intent of the
revised recommendation. In response to the final report, we request that the ABL
element manager provide an estimated date for completing the updated SSAA for
the second and later ABL aircraft.




                                       28
            E. Auditor Access to Documents at the
               Missile Defense Agency
            MDA did not provide the audit staff with expeditious access to requested
            documents because MDA policy conflicted with DoD policy. The delay
            in receiving documents resulted in a delay of audit evaluations, wasted
            staff-hours for the auditors and the MDA staff, and suspension of another
            audit. Also, because of the unexplained delays, Government
            Accountability Office Government Auditing Standards, June 2003,
            required the auditors to perform additional audit work to verify the
            accuracy of the documents received.



Policy For Releasing Documents to Auditors

    DoD Instruction 7050.3, "Access to Records and Information by the Inspector
    General, Department of Defense," April 24, 2000, provides DoD policy and
    assigns responsibilities for expediting access to DoD records that members of the
    DoD Office of Inspector General require to perform their official duties.

    MDA Instruction 7600.01, "External Audits and Requests," March 17, 2003,
    establishes the MDA policies and procedures for working with the Government
    Accountability Office, DoD Office of Inspector General, and other external audit
    agencies during audits, surveys, reviews, inspections, and other investigatory
    activities.



Release of Documents at Missile Defense Agency

    DoD Instruction 7050.3 requires that staff of the DoD Office of Inspector General
    have expeditious and unrestricted access to, and, when required, copies of all
    records, reports, investigations, audits, documents, papers, recommendations, or
    other material. To enable expeditious and unrestricted access, the Instruction
    further requires that Heads of DoD Components establish procedures to
    immediately grant any DoD Office of Inspector General request for information
    or records relating to matters under an authorized audit. MDA did not provide
    copies of documents in an expeditious manner during auditor visits to the MDA
    Systems Engineering and Integration office, the Aegis BMD Element office, the
    ABL Element office, and the Targets Program office, even when documents were
    readily available. Specifically, from June through September 2004, the auditors
    working on Project No. 2004AE-0154, "Audit of the Capabilities Development
    Process and Management of Target Acquisitions at MDA," received only
    2 percent (2 of 94) of the requested documents within 5 business days. For
    Project No. 2005AE-0134, "Audit of Systems Engineering Planning for the
    BMDS," auditors received 20 percent (49 of 245) of requested documents within
    5 business days. Although document access improved for the second audit, it still
    did not meet the requirements of expeditious access as required by DoD
    Instruction 7050.3.

                                       29
     Additionally, the auditors were unable to remove documents that the M D A or
     element staffs had specifically copied or burned onto a CD for them. Instead, the
     auditors were required, because of MDA Instruction 7600.01, to first coordinate
     the release of documents through MDA, after which they encountered delays
     while they waited for the requested documents.

     Following discussions between MDA and the DoD Office of Inspector General,
     MDA recognized that MDA Instruction 7600.01 was not in accordance with DoD
     policy. Accordingly, MDA issued a memorandum on September 2, 2005, to
     clarify that the MDA policy is to expeditiously provide materials and information
     to auditors. Although other parts of the memorandum still allow MDA up to
     10 working days to provide auditors with documents and do not differentiate
     between the DoD Office of Inspector General and the Government Accountability
     Office, M D A has been providing documents to auditors without delay.



DoD and Missile Defense Agency Policy

     The unacceptable delays in receiving requested documents occurred because
     MDA policy conflicts with DoD policy on expeditious and unrestricted auditor
     access to documents. Specifically, MDA Instruction 7600.01 states that MDA
     may have up to 10 working days to provide auditors with copies of requested
     documents and that auditors must coordinate document requests through MDA
     and its General Counsel. That extensive coordination process led to unreasonable
     delays in receiving documents, in direct violation of the document access
     requirements and Component Heads' responsibility to establish procedures that
     grant immediate access to documents in DoD Instruction 7050.3.

     Additionally, the MDA Instruction incorrectly classified the DoD Office of
     Inspector General as an external audit agency. The DoD Office of Inspector
     General reports directly to the Secretary of Defense, making the Office of
     Inspector General an internal audit agency. Therefore, the auditors should not
     have been subjected to the restrictions that MDA Instruction 7600.01 places on
     external audit organizations.



Effects of Document Access

    The delay in receiving documents resulted in delays in audit evaluations, wasted
    staff-hours for the auditors and the M D A staff, and suspension of another audit.
    Additionally, Government Accountability Office Government Auditing
    Standards, June 2003, required the auditors to perform additional audit work to
    verify the accuracy of the documents received because of the unexplained delay.

    Audit Evaluations. The delays in receiving documents delayed the auditors'
    work to complete their evaluations. For example, MDA personnel used briefing
    charts in meetings; evaluations of those briefing charts were delayed as the
    auditors waited for the charts to complete the MDA coordination process.


                                        30
     Staff-hours. The DoD Office of Inspector General spent unnecessary staff-hours
     waiting for MDA to comply with procedures in MDA Instruction 7600.1 for
     releasing documents. To obtain the documentation, the auditors:

        •    maintained a database of the documents that they requested,

        •   waited to receive MDA updates on the release status of documents
            requested, and

        •   requested information regularly on the status of their various document
            requests through phone calls and e-mails.

    More delays occurred because the MDA internal audit personnel who coordinated
    the release of requested documents had to track down documents' owners within
    MDA and wait for the MDA and General Counsel to clear the release of
    documents. These delays reduced the amount of internal audit work the auditors
    could perform for MDA. Thus, the requirements of MDA Instruction 7600.01
    decreased productivity for MDA and DoD Office of Inspector General personnel.

    Audit Suspension. The delays in receiving documents resulted in the suspension
    of another audit. Specifically, Project No. D2005-D000AL-0152, "Information
    Security Operational Controls at the Missile Defense Agency," was suspended for
    24 days, beginning June 3, 2005, and reopening June 27, 2005, because MDA
    was slow in releasing documents.

    Additional Audit W o r k . Government Accountability Office Government
    Auditing Standards, June 2003, state that unexplained delays in providing
    information might indicate a heightened risk of fraud; therefore the auditors had
    to perform additional audit work to verify the accuracy of the documents they
    received. Very few documents were received in an expeditious manner and it was
    unclear why MDA needed to review documents before releasing them to the
    auditors. The auditors had to reconfirm problems previously noted during onsite
    reviews of documents when MDA later released the documents. We did not
    identify any discrepancies in the documents with what we previously noted
    during our onsite reviews.



Conclusion

    MDA Instruction 7600.01 did not comply with the requirements of DoD
    Instruction 7050.3. Specifically, the coordination process and the associated
    delays in releasing documents did not conform with DoD policy for expeditious
    and unrestricted auditor access to documents, and the auditors had to complete
    additional audit work to verify the accuracy of the documents to comply with
    Generally Accepted Government Auditing Standards.




                                        31
Recommendation, Management Comments, and Audit
  Response

    We recommend t h a t the Director, Missile Defense Agency revise Missile
    Defense Agency Instruction 7600.01, " E x t e r n a l Audits and Requests,"
    M a r c h 17, 2003, to r e q u i r e t h a t a u d i t o r s from the DoD Office of the
    Inspector General, as an internal audit agency, receive expeditious and
    unrestricted access to all documentation in accordance with DoD
    Instruction 7050.3, "Access to Records and Information by the Inspector
    General, D e p a r t m e n t of Defense," April 24, 2000.

    M a n a g e m e n t C o m m e n t s . The Executive Director, responding for the Director,
    Missile Defense Agency, concurred, stating that M D A Business Management has
    substantially modified MDA Instruction 7600.01 to streamline the release of the
    majority of documents within 5 days of a request. He further stated that MDA
    Instruction 7600.01 will be coordinated within MDA, with planned approval by
    January 2006.




                                           32
Appendix A. Scope and Methodology
   We evaluated whether the MDA was adequately planning systems engineering to
   develop and field missile defense elements, or key components, into an effective
   and suitable BMDS. The review focused on the MDA and three elements of the
   BMDS: Aegis BMD, ABL, and THAAD. We chose those three elements because
   they were in three different stages of development with plans to transition to three
   different Services. Specifically, the ABL was in early development (Technology
   Level 3) and was to transition to the Air Force, the THAAD was in
   mid-development (Technology Level 2: Next Block) and was to transition to the
   Army, and the Aegis BMD was partially transitioned to the Navy.

   To determine whether M D A was adequately planning systems engineering, we
   examined systems engineering documents dating from November 1996 through
   October 2005. We obtained those documents from and conducted interviews with
   personnel from MDA, Arlington, Virginia; the Aegis B M D Element office,
   Arlington, Virginia; the ABL Element office, Albuquerque, New Mexico; and the
   THAAD Element office, Huntsville, Alabama.

   Our determination of whether MDA had adequate planning for systems
   engineering also included evaluating MDA compliance with the principles or the
   exact provisions of the following policy and guidance: DoD Directive 5000.1,
   "The Defense Acquisition System," May 12, 2003; DoD Instruction 5000.2,
   "Operation of the Defense Acquisition System," May 12, 2003; DoD
   Directive 5134.9, "Missile Defense Agency," October 9, 2004; Defense
   Acquisition Guidebook, October 17, 2004; DoD Directive 8500.1, "Information
   Assurance," October 24, 2002; DoD Instruction 8580.1, "Information Assurance
   in the Defense Acquisition System," July 9, 2004; DoD Instruction 5200.40,
   "DoD Information Technology Security Certification and Accreditation Process,"
   December 20, 1997; DoD Directive 4630.5, "Interoperability and Supportability
   of Information Technology and National Security Systems," May 5, 2004; DoD
   Instruction 4630.8, "Procedures for Interoperability and Supportability of
   Information Technology and National Security System," June 30, 2004; CJCS
   Instruction 3170.01E, "Joint Capabilities Integration and Development System,"
   May 11, 2005; and CJCS Instruction 6212.01C, "Interoperability and
   Supportability of Information Technology and National Security Systems,"
   November 20, 2003.

   We performed this audit from March 2005 through October 2005 in accordance
   with generally accepted government auditing standards. The scope was limited
   because of the restrictions that MDA placed on the release of documentation. Not
   receiving documents in an expeditious manner resulted in the delay of audit
   evaluations, wasted staff hours for the auditors and the M D A staff, and
   performance of additional work to confirm that MDA did not alter
   documentation. This scope limitation is further detailed in finding E.

   Use of Computer-Processed D a t a . We did not use computer-processed data to
   perform this audit.



                                       33
    Use of Technical Assistance. Two electrical engineers and one software
    engineer from the Technical Assessment Division of the Audit Follow-up and
    Technical Support Directorate, DoD Office of Inspector Genera! assisted in the
    audit. The electrical engineers assisted the audit team fay analyzing systems
    engineering documents and participating in interviews. The software engineer
    assisted the audit team by analyzing software documents and participating in
    interviews.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD weapons systems high-risk area.


Prior Coverage

    No prior coverage has been conducted on systems engineering planning at MDA
    during the last 5 years.




                                       34
Appendix B. Missile Defense Agency Systems
            Engineering Process

                        The MDA S y s t e m s E n g i n e e r i n g
                           P r o c e s s , March 17, 2005




                     The M D A Systems Engineering
                      Process, September 12, 2005




MDA/BC ­ Missile Defense Agency Battle Management/Command and Control
MDA/SE — Missile Defense Agency Systems Engineering and Integration Directorate
MDA/TE ­ Missile Defense Agency Test and Assessment
STRATCOM/PCL ­ U.S. Strategic Command Prioritized Capabilities Listing



Staff in the Systems Engineering Directorate included a BMDS Roadmap, an architecture
framework, and element participation in every stage of the systems engineering process.




                                               35
Appendix C. Systems Engineering Policy
            and Guidance
    The following provide policy and guidance for DoD acquisition managers to
    follow when implementing systems engineering, information assurance, and
    interoperability requirements within acquisition programs.


Systems Engineering

    DoD Directive 5000.1, " T h e Defense Acquisition System," M a y 12, 2003. The
    Directive requires acquisition programs to be managed through a systems
    engineering approach that optimizes total system performance and minimizes
    total ownership costs. DoD Directive 5134.9, "Missile Defense Agency,"
    October 9, 2004, states that the Director, Missile Defense Agency must manage
    according to the principles of DoD Directive 5000.1.

    DoD Instruction 5000.2, "Operation of the Defense Acquisition System,"
    May 12, 2003. The Instruction states that effective sustainment of a weapon
    system begins with designing and developing reliable and maintainable systems
    and applying a strong systems engineering methodology. To further clarify
    systems engineering policy, the Under Secretary of Defense for Acquisition,
    Technology, and Logistics issued a series of three policy memorandums that are
    planned for inclusion in the next update to the Instruction. The three policy
    memorandums are discussed below.

                U n d e r Secretary of Defense for Acquisition, Technology , a n d
    Logistics m e m o r a n d u m , "Policy for Systems Engineering in D o D , "
    F e b r u a r y 20, 2004. The memorandum provides policy on systems engineering
    for acquisition programs. The memorandum requires program managers to
    develop a systems engineering plan for the milestone decision authority to
    approve that describes the program's overall technical approach on processes,
    resources, metrics, and applicable performance incentives.

            U n d e r Secretary of Defense for Acquisition, Technology, and
    Logistics m e m o r a n d u m , "Implementing Systems Engineering Plans in DoD ­
    Interim G u i d a n c e , " M a r c h 30, 2004. The memorandum reaffirms the policy in
    the February 20, 2004, memorandum and identifies areas that the systems
    engineering plan will cover, including the systems engineering process, the
    technical baseline approach, use and criteria of technical reviews, and integrated
    product teams. The memorandum requires acquisition managers to submit the
    systems engineering plan to the Director, Defense Systems for evaluation 30 days
    before a milestone review.

            U n d e r Secretary of Defense for Acquisition, Technology, and
    Logistics m e m o r a n d u m , "Policy A d d e n d u m for Systems Engineering,"
    October 22, 2004. The memorandum requires the Program Executive Officer or
    a chief systems engineer to be responsible for the review and oversee the

                                         36
    implementation of the systems engineering plan. It also states that technical
    reviews must be event driven and be conducted when the system meets the review
    entrance criteria documented in the systems engineering plan. Additionally, the
    memorandum endorses the systems engineering best practices in the Defense
    Acquisition Guidebook.

    DoD Directive 5134.9, "Missile Defense Agency," October 9, 2004. The
    Directive states that the Under Secretary of Defense for Acquisition, Technology,
    and Logistics will provide policy direction and overall management oversight to
    MDA. The Directive states that the Director, Missile Defense Agency must
    manage by the principles of DoD Directive 5000.1 and DoD Instruction 5000.2
    during incremental and spiral development. The Directive also requires MDA to
    obtain warfighter advice on desired operational features, approaches to system
    fielding, and system integration.

    Defense Acquisition Guidebook, October 17, 2004. T h e Guidebook is
    designed to provide best practices to the acquisition workforce. The
    Guidebook states that systems engineering should provide the capabilities that the
    warfighters need within design constraints and technology, budget, and schedule
    limitations. Further, the Guidebook provides a detailed description of the systems
    engineering activities required at each acquisition phase.



Information Assurance

    DoD Directive 8500.1, "Information Assurance," October 24, 2002. The
    Directive requires Defense agencies to identify and include information assurance
    requirements in the design, acquisition, installation, operation, upgrade, or
    replacement of all information systems. Accordingly, the software development
    plan should define how to develop and implement the information assurance
    requirements that are defined in the requirements documents.

    DoD Instruction 8580.1, "Information Assurance in the Defense Acquisition
    System," July 9, 2004. The Instruction requires Defense agencies to implement
    information assurance throughout the entire life cycle of a weapon system.

    DoD Instruction 5200.40, "DoD Information Technology Security
    Certification and Accreditation Process," December 20, 1997. The Instruction
    requires that Defense agencies protect information technology by implementing
    the system Security Certification and Accreditation Process. Specifically, the
    Security Certification and Accreditation Process requires program managers to
    complete an SSAA to document the conditions required for a system to become
    certified and accredited. The Instruction prescribes procedures for certifying and
    accrediting information technology, automated information systems, networks,
    and DoD sites. Specifically, the Instruction establishes a standard process to
    certify and accredit information technology systems that will maintain the
    security of the defense information infrastructure. A critical element of the DoD
    Information Technology Security Certification and Accreditation Process is the
    SSAA between the system program manager, designated approving authority,
    certification authority, and user representative.

                                        37
Interoperability

     DoD Directive 4630.5, "Interoperability and Supportability of Information
     Technology and National Security Systems," May 5, 2004. The Directive
     requires DoD Components to establish and use the NR-KPP to assess the
     attributes required for the technical exchange of information and the effectiveness
     of that exchange, The Directive also requires an information support plan to
     manage and evaluate interoperability and supportability needs.

     DoD Instruction 4630.8, "Procedures for Interoperability and Supportability
     of Information Technology and National Security Systems," J u n e 30, 2004.
     The Instruction requires CJCS to coordinate with DoD Components to provide
     advice, guidance, direction, and assistance on interoperability and supportability.
     The Instruction also requires that the information support plan include an
     NR-KPP and document the program's interoperability, information, and support
     requirements.

     C J C S Instruction 3170.01E, " J o i n t Capabilities Integration a n d
     Development System," M a y 11, 2005. The Instruction requires the JCS Director
     for Command, Control, Communications, and Computers Systems (J6) to serve as
     the lead for validating the NR-KPP and resolving any issues associated with it.
     The Instruction also requires DoD Components to establish performance
     thresholds and objectives for all NR-KPPs.

     C J C S Instruction 6212.01C, "Interoperability and Supportability of
     Information Technology and National Security Systems," N o v e m b e r 20,
     2003. The Instruction requires DoD Components to coordinate with the JCS
     Director J6 to obtain certification of NR-KPPs and information support plans for
     fielded capabilities. The Instruction also details a methodology to develop the
     NR-KPP and provides a checklist for J6 certification of information support
     plans.




                                         38
Appendix D. Audit Response to the Missile
            Defense Agency Comments
    The detailed responses on the comments from the Executive Director, MDA,
    follow. The complete text of those comments is in the Management Comments
    section of this report.


Management Comments on General Content and Audit
 Response

    The Executive Director's comments focused on general content in the
    Background and finding A.

    Background. The Executive Director stated that the report should include the
    following ideas in the background.

           •   the January 2, 2002, Secretary of Defense memorandum greatly
               expanded MDA responsibility and authority.

           •   DoD Directive 5134.9 supplements the Secretary of Defense
               memorandum. Specifically, DoD Directive 5134.9 permits the Under
               Secretary of Defense for Acquisition, Technology, and Logistics in
               collaboration with the Director, Missile Defense Agency to
               periodically determine the applicability of DoD Directive 5000.1 and
               DoD Instruction 5000.2.

           •   DoD Directive 5134.9 provides the Director, Missile Defense Agency
               with significant flexibility in managing the elements until they transfer
               to the Services.

           •   DoD Directive 5134.9 allows the BMDS to be managed consistent
               with the principles of the DoD 5000 series.

           •   the February 2002 Under Secretary of Defense for Acquisition,
               Technology, and Logistics memorandum designated the BMDS as one
               major DoD acquisition program.

    Audit Response. We revised the report by including the above information in
    either Background section of the report or in finding A under "Systems
    Engineering Planning for the BMDS," which is the background information for
    the finding.

    Finding A—Systems Engineering Plan. The Executive Director stated that our
    assertion that the MDA Assurance Provisions documented support for a systems



                                        39
engineering plan is inaccurate. The MDA Safety, Quality, and Mission
Assurance Directorate developed the MDA Assurance Provisions to assure safety,
risk mitigation, and quality.

Audit Response. We removed this reference from the report.

Finding A-Systems Engineering Guidance. The Executive Director disagreed
with the conclusion that MDA had not provided clear guidance to the elements on
the systems engineering activities that were appropriate to their stage of
development. He stated that the MDA Systems Engineering Directorate had
provided significant and thorough guidance to the elements throughout the system
development cycle through meetings and numerous documents. Documents
coordinated included:

       •   the testbed description document, which describes the concepts to be
           developed,

       •   the testbed system specification, which allocates system requirements
           and interfaces to the BMDS elements, and

       •   the technical objectives and goals, which guided initial BMDS
           development by providing the elements a path for program
           development and metrics to measure progress.

Audit Response. We recognize that MDA did provide significant guidance to
MDA elements on systems engineering activities. As a result, we deleted the
finding A section of the draft version and the corresponding recommendation that
addressed an overall lack of MDA guidance to BMDS elements. While the draft
report overstated the overall need for MDA guidance to the BMDS elements,
findings B , C, and D address the need for specific types of MDA guidance to the
BMDS elements, including guidance for coordinating and approving SEMPs,
submitting configuration management plans for approval, and providing oversight
and guidance to elements that are not yet part of a specific developmental block.




                                   40
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Element/Budget)
Assistant Secretary of Defense for Homeland Defense
Assistant Secretary of Defense for Networks and Information Integration
   Deputy Assistant Secretary of Defense for Space Program
Director, Program Analysis and Evaluation


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector Genera!
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Strategic Command


Other Defense Organizations
Director, Missile Defense Agency
   Deputy, Systems Engineering and Integration Directorate
   Element Director, Aegis Ballistic Missile Defense
   Element Director, Airborne Laser
   Element Director, Terminal High Altitude Area Defense




                                          41
Non-Defense Federal Organization
Office of Management and Budget


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                       42
Missile Defense Agency Comments


                                DEPARTMENT OF DEFENSE
                                  MISSILE DEFENSE AGENCY
                                  7100 D E F E N S E PENTAGON
                                 WASHINGTON, DC 20301 - 7 1 0 0

     DM
                                                                             JAN032006



     MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING,
                      PROGRAM DIRECTOR, ACQUISITION AND
                      TECHNOLOGY, OFFICE OF THE INSPECTOR
                      GENERAL, DEPARTMENT Of DEFENSE

     subject;    Response to Draft Report on System Engineering Planning for the Ballistic
                 Missile Defense System (Project No. D2005 D000AE-0134)



            We appreciate the efforts made by your staff to work with the Missile Defense
     Agency in ensuring that the report is factually accurate. However, we have some major
     concerns with the draft report as currently written. Attachment 1 responds to the subject
     report's findings and recommendations. Attachment 2 provides additional comments on
     the discussion sections of the draft.

           My point of contact for this submission is Mr. Robert Weyant, Director, Internal
     Review at (703) 553-5627.




                                                  TERRY R. LITTLE
                                                  Executive Director

     Attachments
     As stated




                                               43
Missile Defense Agency Response to Draft Report on System Engineering Planning
for the Ballistic Missile Defense System (Project No. D 2 0 0 5 -
 DD00AE-0134)


       The Missile Defense Agency (MDA) continues to aggressively and successfully
develop an integrated ballistic missile defense system (BMDS), The MDA Director has
established numerous boards and venues to actively track progress of the integration
(Configuration Control Board, System Element Review, Operational Configuration
Management Board, Test Configuration Control Board, Program and Organizational
Review, System Engineering Integration Council and the Executive Management
Council, to name a few). Progress of system integration is constantly monitored and
evaluated to provide the best approach toward a completely integrated BMDS.
Additionally, MDA uses a Technical Objective and Goals (TOG) document to guide
development and systems engineering of the BMDS. This document contains the
technical objectives and goals (aka key performance parameters) that provide the systems
engineering team with a solid and proven method of risk management and analysis.
Further, MDA has prepared a draft comprehensive, overall system engineering plan
which will be disseminated to the entire MDA upon its approval.

General Content:

         Describing the January 2, 2002, Secretary of Defense {SECDEF) memorandum
without indicating that this memorandum significantly expanded MDA's responsibility
and authority minimizes the Presidential emphasis on the BMDS effort at this time across
multiple BMDS component developments. Supplementing (and not replacing) the
January 2002 memorandum is Department of Defense Directive (DoDD) 5134.9,
"Missile Defense Agency," dated October 9, 2004, which provides significant guidance
to all the Services and the Department. In that Directive, the Under Secretary of Defense
for Acquisition, Technology, and Logistics (AT&L) in concert with the Director, MDA,
periodically determines the applicability of DoDD 5000.1 and Department of Defense
Instruction (DoDI) 5000.2. The Director is offered significant flexibility in managing
BMDS elements and components until the Services enter transferred elements into the
Formal Department of Defense (DoD) acquisition process. In accordance with DoDD
5134.9, MDA will manage the BMDS "consistent with" the principles of the DoD 5000
scries. These ideas are significant and should be mentioned in the background.

        It is important to recognize that the BMDS is one Major Defense Acquisition
Program (MDAP) (see AT&L memorandum of February 2002, page 2, para c). The
Aegis BMD element, for example, is not an MDAP, nor is the Aegis BMD element
transitioning to the Navy, although some capabilities will be provided from Block 04.
Further, providing those capabilities does not amount to transitioning production or
procurement responsibilities to the Navy and so does not trigger Milestone C
requirements (see, for example, the SECDEF Memo of January 2002, page 3, para f; the


                                                                     ATTACHMENT 1

                                         44
                                                                                                   Final Report
                                                                                                    Reference
                                                                                            2

AT&L memorandum of February 2002, page 2, para b(6); and DoDD 5134.9, para 6.3.1).
The discussion in Findings, Section B, Systems Engineering for the AEGIS Element
takes a contrary view, with which we strongly disagree.

        Findings, Section A of the report concludes, in part, t h a t ,"...MDAhad not
                                                                                                   D e l e t e d
provided clear guidance to MDA elements on the systems engineering activities that were
appropriate to their stage of development" (page 4, third bullet). That conclusion does
not recognize that MDA System Engineering and Integration (MDA/SB) provides
significant and thorough guidance to the elements and components throughout the full
system development cycle, i.e. from planning and concept development through fielding.
MDA is not subject to the traditional requirements generating process of the 3170 series
of documents, Beginning in 2001 and culminating in mid 2002, MDA developed And
published a TOG document to guide the initial BMDS development, This document
provided the elements a path for program development and metrics to measure progress.

        The MDA uses the TOG instead of the Key Performance Parameters (KPP)
construct, which is a vestige of the 3170 series closeouts. In addition, over the course of
the last four years, MDA/SE developed a significant body of documentation to be used as
guidance for the elements in the form of System Capability Specifications, Adversary
Capability Documents, Adversary Data Packages, Test Bed Description Documents
(TBDD) and Block-specific Test Bed System Specifications (TBSS). These top-level
specifications were developed and coordinated with BMDS elements through an
interactive and collaborative process to identify alternative concepts to enhance the
BMDS. During that process, Concept Description (CD) and Engagement Sequence
Group (ESG) documents are drafted and coordinated with the elements/components via
tabletop discussions. The collaborative process continues in the development of the
analysis that evaluates these concepts against the criteria contained in the TOG.

        The results of this process are coordinated via another set of tabletop discussions
with the elements/components. Then, all of the concepts are reviewed at a Technical
Review Board (TRB ­ last one held May 2005) with senior MDA leadership, including
all of the elements/components. The TRB's recommendation on the concepts to be
developed is documented in the TBDD which is approved at the BMDS Configuration
Control Board (CCB), chaired by the Director, MDA. After CCB approval, the TBDD Is
distributed via a Director's memorandum that directs the elements/components to execute
the program described in the TBDD. A similar process is used in the development of the
TBSS, which describes system requirements and interfaces and allocates them to the
elements and components of the BMDS, This interactive and collaborative process with
elements/components is used for development of all system engineering documentation.
Appropriate analysis and risk management support all phases of the system engineering
process and a well established technical review process and configuration management
board system controls the system engineering                                            process.

                                             45
                        FOR OFFICIAL USE ONLY
Final Report
 Reference




                       Further, the assertion that, "MDA documented its support for systems engineering
               planning in the MDA Assurance Provisions, February 24, 2004, which require that all
               elements develop a systems engineering plan for MDA coordination and approval," is
               inaccurate (report, page 7). The MDA Assurance Provisions (MAP) is a document
               created by the MDA Safety, Quality, and Mission Assurance Directorate (MDA/QS). It
               refers to the need for system engineering processes to assure safety, risk mitigation, and
               quality, but it does not define those processes. Moreover, the MAP is not a compliance
               document. MDA/SE developed an initial BMDS System Engineering Process to reflect
               a capability-based, spiral acquisition methodology. The process was implemented for
               the BMDS Block 04. In collaboration with the BMDS elements, that process was
               modified for BMDS Block 06. It was briefed to the organization and, when approved,
               will be issued to the BMDS elements and components as the BMDS System Engineering
               Plan.

                     Attachment 2 to this response provides some specific corrections, clarifications,
               and updates. The following is the response to the specific recommendations.

               Recommendations:

               A. Systems Engineering Planning for the Ballistic Missile Defense System

               DoDIG Recommendation A1: We recommend that the Director, Missile Defense
               Agency: Establish a comprehensive overall systems engineering plan that describes the
               Missile Defense Agency's approaches and strategy to achieve its technical objectives, in
               compliance with the DoD Directive 5134.9, "Missile Defense Agency," October 9, 2004,
               requirement to manage the Ballistic Missile Defense System consistent with the
               principles of the policies in the DoD 5000 series.

               MDA Response; Concur. The draft plan is currently in agency coordination and when
               approved, will be sent to the entire agency as a follow-up to agency approval of the
               system engineering process in August, 2005, and consistent with the current process
               being executed agency-wide.

               DoDIG Recommendation A2: We recommend that the Director, Missile Defense
               Agency; Update the Logistics Support Document 2005 to clarify how the Missile
               Defense Agency Block Transition and Sustainment Office should coordinate with
               element offices to plan logistics sustainment for the Ballistic Missile Defense System.

               MDA Response: Concur. The Logistics Support Document 2005 is being updated to a
               Logistics Support Document 2006 that includes coordination between MDA Force
               Structure Integration and Deployment Directorate (MDA/TR) and the elements on
               planning logistic sustainment for the BMDS. Anticipate completion of the 2006
               Logistics Support Document NLT 3Q FY06. Additionally, the "Missile Defense Agency

                                                           46
                                                                                              Final Report
                                                                                               Reference




Block Transition and Sustainment Office" listed above should be changed to read
"Missile Defense Agency Force Structure Integration and Deployment Directorate."

DoDIG Recommendation A3: We recommend that the Director, Missile Defense
Agency: Issue policy to Missile Defense Agency element managers to update
elements' Integrated logistics support plans with procedures for interacting with the
Missile Defense Agency Block Transition and Sustainment Office and other element
offices in more effectively plan for logistics support of missile defense.

MBA Response: Concur. MDA/TR is currently working on generating a BMDS
Integrated Sustainment Support Plan that will tie together the BMDS level and the
element levels to more effectively plan for integrated support across all portions of
missile defense. Additionally, the "Missile Defense Agency Block Transition and
Sustainment Office" listed above should be changed to read "Missile Defense Agency
Force Structure Integration and Deployment Directorate."

DoDIG Recommendation A4: We recommend that the Director, Missile Defense
Agency; Provide guidance to Missile Defense Agency element managers on systems               Deleted
engineering planning and activities that are appropriate to the development stage of their
elements, in compliance with the DoD Directive 5134.9, "Missile Defense Agency,"
October 9, 2004, requirement for the Director, Missile Defense Agency to direct,
manage, and control the resources of the Missile Defense Agency,

MDA Response: Nonconcur. Consistent with the General Content comments noted
above, MDA provides guidance to element managers via a collaborative process and
documents this in CDs/ESGs and the TBDD consistent with the stage of their
development. The TBSS and Interface Control Documents (ICDs) codify these
requirements and provide additional direction to the element managers consistent with
the principles of DoDD 5000.1 and DoDI 5000.2

B. Systems Engineering for the AEGIS Element

DoDIG Recommendation Bl: We recommend that the Director, Missile Defense                     Renumbered
Agency: Revise the "Missile Defense Agency Assurance Provisions,*" February 24,              as
2004, to designate the appropriate Missile Defense Agency organization to be responsible     Recommen-
                                                                                             dation B . l . a .
for coordinating and approving systems engineering management plans for the Missile
Defense Agency elements.

MDA Response: Concur, MDA/QS will update the MAP to designate the appropriate
MDA organizations for the coordination and approval of SEMPs and Configuration
Management Plans.

                                              47
                                                                                          5

DoDIG Recommendation B2a: We recommend that the element manager for the
AEGIS Ballistic Missile Defense Element: Coordinate and obtain approval of the draft
AEGIS Systems Engineering Management Plan from the Missile Defense Agency.

MDA Response: Concur. Element System Engineering Plans should be coordinated
with the BMDS System Engineer to ensure that their system engineering process supports
the BMDS System Engineering Process. While MDA does not want to impose a 'one-
size-fits-all' system engineering process given the diversity of the types of
elements/components that are part of the BMDS, it does want to ensure that there is a
sound system engineering process that supports the element/component integration Into
the BMDS. Numerous National Team reviews, MDA System Element Reviews, progress
reviews, and design reviews performed by both MDA and Aegis BMD personnel keep
MDA informed of Aegis BMD systems engineering status.

DoDIG Recommendation B2b: We recommend that the element manager for the
AEGIS Ballistic Missile Defense Element: Develop and include information assurance
requirements in the Software Development Plan that meet the requirements of DoD
Directive 8500.1, "Information Assurance," October 24, 2004, to include information
assurance requirements in the design and acquisition of all information systems.

MDA Response: Concur, Aegis BMD currently has a Tactical Interim Authority to
Operate for Block 04 approved by the MDA Chief Information Officer (MDA/IO). The
Block 04 System Security Authorization Agreement (SSAA) is being staffed within
Aegis BMD for submittal to MDA/IO. Aegis BMD has incorporated Information
Assurance (IA) requirements into the Block 06 Element Capability Specification that was
presented to MDA/SB and the Deputy Director, Technology & Engineering at the Aegis
BMD Block 06 System Requirements Review, and is working with MDA/SE along with
the prime contractors on further delineation of those requirements. Additionally, the
Block 06 System Engineering Management Plan (SEMP) will further address the IA
requirements as well as the Software Development Plan (SDP) for implementation into
the Block 06 program.

DoDIG Recommendation B2c: We recommend that the element manager for the
AEGIS Ballistic Missile Defense Element; Complete the DoD Information Technology
Security Certification and Accreditation Process, including producing a System Security
Authorization Agreement for the element to become certified and accredited in
accordance with DoD Instruction 5200.40, "DoD Information Technology Security
Certification and Accreditation Process," December 20, 1997.

MDA Response: Concur but with comments. Since the BMDS is a system of
elements and components with platform information technology (IT) interconnections,
MDA manages the IA requirements of the BMDS and its subordinate elements consistent
with the DoD 8500 series. Platform IT refers to computer resources, both hardware and

                                          48
                                                                                            Final Report
                                                                                             Reference




software, that are physically a part of, dedicated to, or essential to the mission
performance of special purpose systems such as weapons... (para, E2.1.17.4, DoDI
8500.2 February 6, 2003). Further, MDA uses a tailored DoD Information Technology
Security Certification and Accreditation Process (DITSCAP) process based on DoD
8510.1-M July 31, 2000, to certify and accredit types, sites, and element SSAAs that roll
up into a single unified system-level SSAA for the BMDS. The Aegis BMD SSAA is in
final coordination. The 8500 series is an improvement over the 5200 series since the
newer series has specific IA controls for Mission Assurance Category I systems that
MDA uses for compliance tracking and risk management.
                                                                                            Redirected
DoDIG Recommendation B2d: We recommend that the element manager for the                     and
AEGIS Ballistic Missile Defense Element: Coordinate with the Joint Chiefs of Staff          Renumbered
Director for Command, Control, Communications, and Computer Systems and the                 as B . l . b .
Deputy Chief of Naval Operations (Resources, Warfare Requirements, and Assessments)
to establish a net-ready, key performance parameter and an information support plan to
comply with the requirements of the Secretary of Defease memorandum, "Missile
Defease Program Direction," January 2, 2002, for transitioning the AEGIS Ballistic
Missile Defense Element.

 MDA Response: Nonconcur. MDA, not the elements, coordinates with Joint Chiefs of
 Staff (JCS) as the operator of the BMDS. Interaction with the JCS should come from
 higher than the element level. This is supported by DoDD 5134.9. which calls for the
 MDA Director to "Work closely with the warfighter community (including the
Combatant Commanders and the Chairman of the Joint Chiefs of Staff) to develop the
joint command and control architecture for the BMDS and to integrate it into the
applicable command and control architectures for air and missile defense." Even so,
Aegis BMD is working closely with the Navy (which, in turn, coordinates with the JCS)
in the development of its command and control architecture and is fully compliant with
Military Standard 6016 and 3016 for LINK-16. In addition, MDA does not use KPPs, as
noted in the General Content comments.

C. Systems Engineering for the Terminal High Altitude Area Defense Element

DoDIG Recommendation C1: We recommend that the Director, Missile Defense
Agency: Revise the "Missile Defense Agency Assurance Provisions," February 24,
2004, to designate the appropriate organization within the Missile Defense Agency to
coordinate and approve configuration management plans for the Missile Defense Agency
elements.

MBA Response: Nonconcur. Paragraph 3.10.1.2 of the MDA MAP, dated January 9,
2004, states,"TheCM (Configuration Management) Plan shall be submitted to the
cognizant MDA 2-letter organization for approval..." The cognizant MDA 2-letter in this

                                          49
Final Report
 Reference




               instance is the Project Manager. Terminal High Altitude Area Defense (THAAD),
               MDA/TH. The THAAD Project Manager's approval meets the MDA guidance.

               DoDIG Recommendation C2a; We recommend that the element manager for the
               Terminal High Altitude Area Defense Element: Complete phase 1 of the Defense
               Information Technology Security Certification and Accreditation Process to include an
               approved System Security and Authorization Agreement.

               MDA Response; Concur but with comments. MDA manages the IA requirements of
               the BMDS and its subordinate elements consistent with the DoD 8500 series since the
               BMDS is a system of elements and components with platform IT interconnections,
               Platform IT refers to computer resources, both hardware and software, that are physically
               a par of, dedicated to, or essential to the mission performance of special purpose systems
               such as weapons... {para E2.1.17.4, DoDI 8500.2 February 6, 2003). Further, MDA uses
               a tailored DITSCAP process based on DoD 8510.1-M July 31, 2000 to certify and
               accredit types, sites, and element SSAAs that roll up into a single unified system-level
               SSAA for the BMDS. The THAAD element manager submitted a draft SSAA to the
               MDA Designated Approving Authority (DAA) and Certification Authority (CA) for
               coordination in November 2005 that will lead to an approved element SSAA for THAAD
               before the end of FY06. The 8500 series is an improvement over the 5200 scries since
               the newer series has specific IA controls for MAC I systems that MDA uses for
               compliance tracking and risk management,

               DoDIG Recommendation C2b: We recommend that the element manager for the
               Terminal High Altitude Area Defense Element: Coordinate and obtain approval of the
               draft configuration management plan from the Missile Defense Agency.

               MDA Response: Completed. The THAAD Project Manager approved the THAAD
               Development Program Configuration Management Plan, effective January 27, 2003.
               Paragraph 3.10.1.2 of the MDA MAP states "The CM Plan shall be submitted to the
               cognizant MDA two-letter organization for approval..." The cognizant MDA two-letter
               in this instance is the Project Manager,THAAD, MDA/TH. The THAAD Project
               Manager's approval meets the MDA guidance,

               DoDIG Recommendation C 2 C : We recommend that the element manager for the
               Terminal High Altitude Area Defense Element: Revise the software development plan to
               include:

                     (1) Plans for assessing the verification methodology that the contractor uses to
                     measure whether the processes, standards, and procedures being used to develop
                     software are adequate.

                                                          50
                                                                                           Final Report
                                                                                            Reference




       {2) Verification methodology for determining whether the software development
                                                                                           Deleted
       was adequately staffed and the staff fully trained.

MDA Response: Nonconcur. On November 3, 2005, MDA/QS concurred with
THAAD's contracted approach for updating and executing all applicable provisions of
the THAAD MAIP including the SDP approach for implementing MDA Assurance
Provisions.

D. Systems Engineering for the Airborne Laser Element

DoDIG Recommendation D1: We recommend that the Airborne Laser element
manager: Update the 1996 Single Acquisition Management Plan to: a. Adhere to the
principles in DoD Instruction 5000.2, "Operation of the Defense Acquisition System,"
May 12, 2003, to update the changes that occurred in the element's technical approach,
systems engineering processes, and tasks since it became part of the Missile Defense
Agency in January 2002. b. Define the evolutionary acquisition strategy and include
parameters, with thresholds find objectives, for each evolutionary increment planned for
the Airborne Laser Element, in compliance with DoD Directive 5134.9, "Missile Defense
Agency," October 9, 2004.

MDA Response: Concur: The Airborne Laser (ABL) program will updateTheSingle
Acquisition Management Plan (SAMP) based on the DoDIG recommendation. ABL has
developed their evolutionary acquisition strategy plan which was briefed to the DoDIG.
ABL will include the plan in the SAMP update.

DoDIG Recommendation D2: We recommend that the Airborne Laser element
manager: Update the 1997 Systems Engineering Management Plan to comply with the
principles of the Under Secretary of Defense for Acquisition, Technology, and Logistics
memorandums' requirement to update as changes occurred in the program's overall
technical approach, including processes, resources, metrics, find applicable performance
incentives, and to establish entrance criteria for all planned technical reviews.

MDA Response: Concur & Completed. While at the time of the review the ABL
program had not updated the SEMP since 1997, ABL had updated the systems
engineering documents pointed to in the SEMP that are used to guide the program. The
SEMP has since been updated and the most current version is dated September 22, 2005.
                                                                                           Revised
DoDIG Recommendation D3a: We recommend that the Airborne Laser element
manager modify Contract F29601-97-C-0001 to: Require the contractor to implement
the Airborne Laser Software Development Plan.

                                           51
Final Report
 Reference




               MDA Response: Nonconcur: It would be cost prohibitive and of limited benefit for the
               ABL program to put the Airborne Laser SDP on the current contract. Most subsystem
               software is complete and supporting integration and test activities.

               DoDIG Recommendation D3b: We recommend that the Airborne Laser element
               manager modify Contract F29601-97-C-G001 to: Require the contractor to use earned
               value management reporting for software development on the following subsystems of
               the Airborne Laser: beam control/fire control, the high energy laser, aircraft, and ground
               support equipment.

               MDA Response: Nonconcur: On the ABL program, software earned value (EV)
               reporting is done in Battle Management, Command, Control, Communications,
               Computers and Intelligence and Beam Control/Fire Control. Laser software is embedded
               within each subsystem. The aircraft does not have any new software being developed
               and Ground Support software EV is reported. The ABL Element manager agrees that
               software EV reporting, which ABL has, is a good practice. The program office position
               is that adequate software EV is in place on the program. Invoking a lower-level of EV
               software reporting via contractual changes would be cost prohibitive at this point in the
               program -­ most subsystem software is complete and supporting integration and test
               activities.

               DoDIG Recommendation D4: We recommend that the Airborne Laser element
               manager: Update the System Security Authorization Agreement to include weapon
               system security requirements for the second and subsequent ABL aircraft.

               MDA Response: Nonconcur. The current SSAA for the ABL Weapon System applies
               only to aircraft #1. When contracts are started to develop aircraft #2, weapon system
               security requirements will be included in those contracts. The new SSAA developed for
               the new aircraft will also include those requirements. It will be a separate and distinct
               document from the current SSAA. There is no need at this time to change the current
               SSAA.

               K. Auditor Access to Documents at the Missile Defense Agency

               DoDIG Recommendation E: We recommend that the Director, Missile Defense
               Agency revise Missile Defense Agency Instruction 7600.01, "External Audits and
               Requests," March 17, 2003, to require that auditors from the DoD Office of the Inspector
               General, as an internal audit agency, receive expeditious and unrestricted access to all
               documentation in accordance with DoD Instruction 7050.3, "Access to Records and
               Information by the Inspector General, Department of Defense," April 24, 2000.

               MDA Response: Concur. MDA Business Management (MDA/DM) has substantially
               modified Instruction 7600.01 to address the DoDIG concerns relating to providing

                                                          52
                                                                                          10

expeditious access to requested documents, not only for the DoDIG, but also (he General
Accountability Office and other audit agencies external to MDA. The new Instruction
streamlines the process for releasing information and further clarifies roles and
responsibilities, which will result in the release of the majority of documents within five
days of the auditor's request. The MDA General Counsel has coordinated on the new
Instruction, and according to MDA policy, will be coordinated with all MDA 2-letter
organizations for their comments and any proposed changes. MDA/DM estimates that
the Director, MDA, will approve the Instruction in January 2006.




                                            53
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Mary L. Ugone
Richard Jolliffe
John E. Meling
Harold C. James
Chris O. Parrish
Brad M. Heller
Kenneth M. Pomietto
Steven P. Mazur
Jaime Bobbio
Peter Johnson
Bill Chang
Jacqueline Pugh
i
